     Department of Homeland Security

     ��������������������������



  Ensuring the Integrity of CBP’s Secure Electronic 

  Network for Travelers Rapid Inspection Program 


                     (Redacted) 





OIG-14-32                                February 2014

                          OFFICE OF ['\SPECTOR GENERAL
                             Department of Homeland Security
                              Washingtun. DC 20528 :' W\\>W .oig.dhs.go\'


                               February 18, 2014


MEMORANDUM FOR:              The Honorable Thomas S. Winkowski
                             Deputy Commissioner
                             Performing the duties oft he Commissioner



FROM:
                         c ~ .Q.1&.J/~
                             of U.S. cu.s~s .ard Border Protection

                             Carlton I. Mann
                             Chief Operating Officer

SUBJECT:                     Ensuring the Integrity of CBP's Secure Electronic Network
                             for Travelers Rapid Inspection Program- Redacted

Attached for your information is our final report, Ensuring the Integrity of CBP's Secure
Electronic Network for Travelers Rapid Inspection Program- Redacted. We incorporated
the formal comments from the U.S. Customs and Border Protection in the final report.

The report contains 17 recommendations aimed at improving the Secure Electronic
Network for Travelers Rapid Inspection Program. Your office concurred with 16
recommendations, and did not concur with 1 recommendation. Based on information
provided in your response, we consider Recommendations 1, 2, 3, 4, 5, 6, 7, 8, 9,11, 12,
13, 14, 15, and 16 resolved and open. Recommendations 10 and 17 are resolved and
closed; no further reporting is necessary for these recommendations.

As prescribed by the Department of Homeland Security Directive 077-01, Follow-Up and
Resolutions for Office of Inspector General Report Recommendations, within 90 days of
the date ofthis memorandum, please provide our office with a written response that
includes your (1) corrective action plan and (2) target completion date for each
recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security.

Please call me with any questions, or your staff may contact Deborah L. Outten-Mills,
Acting Assistant Inspector General for Inspections, at (202) 254-4015, or
Marcia Moxey Hodges, Chief Inspector, at (202) 254-4202.

Attachment
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Review .............................................................................................................. 19 


              CBP Has Made Progress in the SENTRI Application, Enrollment, and Inspection 

              Processes............................................................................................................... 19


              CBP Has Established Initiatives To Address Officer Integrity Issues, But

              Improvement Opportunities Remain.................................................................... 23 

              Recommendations ................................................................... 25, 26, 28, 29, 30, 33 

              Management Comments and OIG Analysis ............................. 25, 27, 28, 29, 31, 34 


              CBP Needs To Address SENTRI Program Challenges To Enhance Internal

              Controls ................................................................................................................ 34 

              Recommendations ............................................................. 35, 37, 39, 42, 43, 45, 47 

              Management Comments and OIG Analysis ....................... 36, 38, 40, 42, 43, 46, 47 


              CBP Established a Redetermination Process, But Challenges Remain ................. 47

              Recommendations ...........................................................................................51, 53 

              Management Comments and OIG Analysis .....................................................51, 53 


   Conclusion ......................................................................................................................... 53 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 54 

              Appendix B:          Recommendations ......................................................................... 56 

              Appendix C:          Management Comments to the Draft Report ............................... 59 

              Appendix D:          Trusted Traveler Program Eligibility Criteria .................................. 66

              Appendix E:          SENTRI Enrollment Process ............................................................ 67

              Appendix F:          Trusted Traveler Programs Required Queries ............................... 68

              Appendix G:           Strict Standard Policy .................................................................... 70 

              Appendix H:          Enrollment Center Interview Checklist ......................................... 72

              Appendix I:          SENTRI Trusted Traveler Briefing Points ........................................ 75 

              Appendix J:          Major Contributors to This Report ................................................ 77 

              Appendix K:          Report Distribution ........................................................................ 78 



www.oig.dhs.gov                                                                                                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   Abbreviations
           AMSCO      Analytical Management Systems Control Office
           ATS        Automated Targeting System
           CBP        U.S. Customs and Border Protection
           CBP-EVS    CBP Enforcement Vetting System
           DCL        Dedicated Commuter Lane
           DFO        Director of Field Operations
           DHS        Department of Homeland Security
           DHS TRIP   DHS Traveler Redress Inquiry Program
           EC         Enrollment Center
           ELMO       Enforcement Link to Mobile Operations
           FAST       Free and Secure Trade
           FY         Fiscal Year
           GES        Global Enrollment System
           GOES       Global Online Enrollment System
           IA         Internal Affairs
           OFO        Office of Field Operations
           OIG        Office of Inspector General
           POE        Port of Entry
           RAW        Risk Assessment Worksheet
           RFID       Radio Frequency Identification
           SENTRI     Secure Electronic Network for Travelers Rapid Inspection
           TTP        Trusted Traveler Programs
           VC         Vetting Center
           VCM        Vetting Center Module




www.oig.dhs.gov                                                                  OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Executive Summary
U.S. Customs and Border Protection (CBP) implemented the Secure Electronic Network
for Travelers Rapid Inspection Program in 1995, as a border management initiative to
accelerate the inspection of pre-enrolled low-risk travelers at designated southern land
border United States ports of entry. Participants voluntarily provide personally
identifiable information to CBP, undergo background checks, and use dedicated lanes
that allow CBP to maintain border integrity, security, and law enforcement
responsibilities. However, some program members have abused their privileges and
transported illicit goods across the border. Smugglers and drug traffickers have also
targeted program participants as conduits for illegal cross-border activities. In addition,
some CBP officers serving at ports of entry potentially pose an insider threat. As a result,
effective internal controls are essential for the program to deter and detect illegal
activity.

We assessed Secure Electronic Network for Travelers Rapid Inspection Program to
determine: (1) the adequacy of CBP’s internal controls to detect and deter smugglers
and drug traffickers from using program participants to transport illegal persons,
contraband, or drugs; (2) to what extent CBP has established redress procedures for
participants who believe they were wrongfully terminated from the program; and (3) to
what extent CBP is using and sharing data collected from the program, as well as from
the NEXUS, Global Entry, and Free and Secure Trade programs to identify illegal
activities and trends associated with these programs.

We have noted significant improvements in CBP’s implementation of the Secure
Electronic Network for Travelers Rapid Inspection Program. Since our initial review in
2004, CBP has enhanced internal controls processes and established initiatives to
address officer integrity issues. However, CBP needs to expand upon these initiatives
and address challenges in the program enrollment process. Although CBP has an
Ombudsman to review and address redetermination requests, the manual process
needs to be enhanced through technology solutions. We made 17 recommendations to
assist the program in correcting these deficiencies so it can attain intended program
results and outcomes. CBP concurred with 16 recommendations, and did not concur
with 1 recommendation.




www.oig.dhs.gov                              1                                    OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Background
CBP is responsible for securing the Nation’s borders and facilitating lawful international
travel and trade, while also enforcing U.S. laws and regulations, including immigration
and drug laws. To enhance its ability to accelerate border inspection processing, CBP has
established Trusted Traveler Programs (TTPs). TTP membership includes pre-enrolled,
low-risk “trusted travelers” arriving in the United States, and allows CBP officers
additional time to focus on higher risk, unknown travelers. TTP members receive Radio
Frequency Identification (RFID) cards, which can be read at designated ports of entry
(POE) locations to verify membership.1

Implemented in 1995, the Secure Electronic Network for Travelers Rapid Inspection
(SENTRI) Program is one of four CBP TTPs. SENTRI is specific to non-commercial vehicle
and pedestrian traveler crossings at southern United States land border POEs, and
allows for expedited border crossing through dedicated commuter lanes (DCLs). SENTRI
vehicles using the DCLs wait an average of 15 minutes to cross the border, while non-
SENTRI vehicles using the regular lanes may wait up to 4 hours.

The other TTPs are Free and Secure Trade (FAST), NEXUS, and Global Entry. The FAST
Program was implemented in 2002, and its membership includes pre-screened
commercial truck drivers entering the United States from Canada and Mexico. NEXUS,
also implemented in 2002, is a bi-national program, which allows pre-screened travelers
expedited processing by U.S. and Canadian officials through dedicated lanes at
designated northern border POEs, at NEXUS kiosks within selected Canadian airports,
and at northern border marine reporting locations. Global Entry was implemented in
2008 and is used at U.S. airports to provide expedited clearance for pre-approved, low-
risk travelers upon arrival in the United States.

Applying for CBP Trusted Traveler Program Membership

Individuals seeking TTP membership voluntarily provide personally identifiable
information to CBP in return for expedited crossing at designated United States POEs.
Appendix D provides the eligibility criteria for each TTP. Applicants apply for TTP
membership through the Global Online Enrollment System (GOES), which is CBP’s web-
based application system used to create user accounts, complete applications, and pay
TTP associated fees.


1
 RFID technology uses radio waves to identify people or objects by using a device to read information
contained in a wireless device, from a distance, without making any physical contact.


www.oig.dhs.gov                                     2                                         OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


GOES is also used to notify applicants of decisions regarding their application. These
decisions include conditional approvals, notifications to schedule an interview, and
application denials. 2 TTP members can also use GOES to submit updated address or
license plate information and to request renewals, replacement cards, or add a vehicle.
SENTRI is the only TTP to accept both electronic and paper applications. Applicants who
submit paper applications and those without email addresses are notified of all
decisions regarding their application by mail. After submitting an application an
individual receives a PASS ID, which is used by the individual and CBP to track
application and membership information. Appendix E contains a flowchart of the
enrollment process.

SENTRI Program Management

CBP’s Office of Field Operations (OFO) provides centralized management oversight and
operational assistance to United States POEs. Within OFO’s Office of Admissibility and
Passenger Programs, the Executive Director and the program management staff oversee
the TTPs. Program management staff performs the following duties in support of the
TTPs:

    •	 Develops and implements national policies related to CBP TTPs;
    •	 Provides guidance to field locations on TTP operation;
    •	 Provides operational oversight of all TTPs;
    •	 Plans growth, expansion of current programs, and develops and implements new
       programs;
    •	 Represents CBP as TTP subject matter experts on internal and external agency
       projects and working groups; and
    •	 Responds to congressional and industry inquiries related to TTP matters.

Vetting and Adjudicating Trusted Traveler Program Applications

In February 2007, CBP designated its Boston Field Office as the lead to coordinate
centralized vetting for the FAST, NEXUS, and SENTRI Programs. With the
implementation of Global Entry in 2008, all TTP applications are now vetted at CBP’s
Vetting Center (VC) in                 which is in the                   area of
responsibility. VC staffing includes                                             and
administrative personnel. In addition, CBP officers are temporarily assigned to the VC
to assist in vetting applications, while an additional CBP officers vet applications


2
 Conditional approval is granted to applicants who have been successfully vetted by Vetting Center
officers but have not had an in-person interview and biometrics collected at an Enrollment Center.

www.oig.dhs.gov                                    3	                                         OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


remotely but are not assigned to the VC. These remote officers are located across the
country and perform vetting as a collateral duty.

CBP uses the Global Enrollment System (GES) to consolidate TTP vetting and enrollment
processes. GES is an intranet-based secure data system, which stores trusted traveler
application and membership information from GOES. The database allows CBP officers
to share information across TTPs. CBP officers at the VC use GES to conditionally
approve or deny TTP applicant membership.

To begin the vetting process, the VC receives TTP applications in the GES Vetting Center
Module (VCM) from GOES. The VCM queries the applicant’s name, date of birth,
address, vehicle identification numbers, and driver’s license information against law
enforcement, intelligence, customs, and immigration data systems prior to an officer’s
review. Appendix F contains a list and description of the databases the VCM may query.
In addition, an officer can run additional data system queries when necessary. The VCM
creates a Risk Assessment Worksheet (RAW) in GES to record vetting actions and query
results for each applicant. The VC officer will then review the RAW to determine
whether the applicant has any derogatory information.

Derogatory RAW information does not automatically deny an applicant TTP
membership. However, when an applicant has derogatory information, CBP officers
must determine its relevance and how it is connected to the applicant. VC officers use
the criteria for eligibility and the Strict Standard Policy to perform their analysis and
make a recommendation about the applicant’s request for membership. Appendix G
contains CBP’s Strict Standard Policy for NEXUS, SENTRI, and Global Entry applicants.
The VC evaluates FAST applicants based on a               system, where offenses and
violations are assigned a point value, and any applicant with             or more is denied
membership.

The VC officer must also provide comments, matching database record numbers, or
issues requiring additional research into the findings section of the RAW. The officer
then recommends denial or conditional approval based on their review and analysis of
the RAW. When there are no records or open issues, the file is updated to a
conditionally approved status based upon the VC officer’s recommendation.

When a VC officer recommends a conditional approval, GES sends the applicant a
notification to schedule an interview at an Enrollment Center (EC) within 30 days, and
informs the applicant which documents are required for the appointment. However, if
the VC officer recommends denying membership, a VC supervisor must review the
application and RAW to determine whether denial is appropriate. The VC officers must
apply the Strict Standard Policy when making a recommendation to deny an applicant.

www.oig.dhs.gov                              4                                     OIG-14-32
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Beginning in April 2013 VC supervisors can exercise discretion for U.S. applicants that 

have
                                                                              which would
have otherwise been denied, but may be considered low-risk.

VC supervisors record their comments and final determination in the RAW’s Reviewer
Comments section. This section may contain additional comments or instructions to the
EC from a VC supervisor. These comments support or explain the reason for conditional
approval or denial. The VC may also include comments with instructions or requests for
the EC to gather additional information that was not available during the initial vetting
process. Applicants who do not meet eligibility requirements after VC processing will be
denied membership. A denial notice is sent to the applicant’s GOES account or mailed to
those applicants without an email address on file. Denial letters are automatically
generated based on codes the VC officers enter into the RAW. CBP’s denial codes with
corresponding explanations are shown in table 1.

Table 1: TTP Denial Codes and Explanation
  Denial
                                  Reason Code and Explanation
  Code
               You are inadmissible into the United States under applicable
     #1
               immigration laws.
               You are in violation of Customs laws, regulations, or other related
     #2
               laws.
     #3        You have been convicted and/or arrested for a criminal offense.
               Information you provided in your application has been found to be
     #4
               false, inaccurate, or incomplete.
     #5        CBP Other - you are otherwise ineligible.
               You are not a citizen or permanent resident of the United States
     #6
               (applied to Global Entry only).
               You are in violation of Canadian laws, regulations, or other related
     #7
               laws (applied to NEXUS only).
Source: CBP’s Consolidated Trusted Traveler Programs Handbook.

Denial letters also provide applicants with information on how to contact the CBP
Ombudsman, when an applicant believes the denial was in error.

Enrolling SENTRI Applicants

TTP applicants who receive conditional approval and notification to schedule an
interview make an appointment at a TTP EC. SENTRI applicants can make appointments


www.oig.dhs.gov                                  5                               OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


at any of the 10 designated SENTRI ECs. The number of officers assigned to the ECs
varies. The largest SENTRI EC has officers, while the smallest EC employs officers.
Officers are assigned to ECs according to the bid, rotation, and placement procedures in
the May 2011 National Collective Bargaining Agreement between CBP and the National
Treasury Employees Union. These procedures require, on an annual basis, that each POE
must solicit bids and rotate approximately 25 percent of the officers within each work
unit. Every September 1, officers bid or request to be assigned to a specific work unit at
the POE. CBP management at the POEs reviews the bids in seniority order, and the most
senior officer requests will be processed first until 25 percent of the new placements are
made within the work units. Table 2 shows the locations that process SENTRI
enrollments, the number of assigned officers, and active enrollments as of
June 30, 2013.

Table 2: SENTRI Enrollment Centers and Number of Active Enrollments
                         Date                               Active
 Enrollment Center      Opened                           Enrollments
                3
 Otay Mesa, CA           1995                                   172,663
 El Paso, TX             1997                                    40,889
 Calexico, CA            2005                                    53,690
 Nogales, AZ             2004                                    16,037
 Hidalgo-Pharr-
 Anzalduas               2010                                    11,938
 Brownsville, TX         2006                                      8,426
 Laredo, TX              2006                                    26,523
 San Luis, AZ            2010                                    17,392
 Douglas, AZ             2013                                         18
 Total                                    57                    347,576
Source: CBP data.

Once an appointment is scheduled, but prior to meeting with the applicant, an EC officer
will review the VC RAW comments. The EC officer will follow up on VC comments, which
may include contacting another DHS component or other Federal, State, or local agency
to clarify whether the RAW information is accurate. Although the VC has conditionally
approved the applicant, the EC conducts the interview to ensure that the applicant’s
low-risk status can be established.

When the applicant arrives at the EC to verify identity, establish low risk, and document
the process, the EC officer must:

3
 The San Ysidro EC opened in 2011 as a spillover satellite center for the Otay Mesa EC. San Ysidro
functions under the same EC reporting structure and resource allocation as the center in Otay Mesa.

www.oig.dhs.gov                                    6                                          OIG-14-32
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


    •   Collect biometric data, fingerprints, and photographs;
    •   Conduct an interview;
    •   Verify biographical and vehicle information;
    •   Scan documents into GES;
    •   Collect the appropriate fees;
    •   Conduct a vehicle inspection; and
    •   Brief approved TTP members.

Collecting Biometric Data

SENTRI applicants more than 14 years of age must be fingerprinted, but all applicants
are required to be photographed. 4 CBP has an interagency agreement with the
Department of Justice’s Federal Bureau of Investigation to process fingerprint
identification and name checks for TTP applicants.




Conducting the Interview and Verifying Applicant Information

An EC officer must interview all applicants 18 years and older for TTP membership. For
applicants less than 18, unless they are emancipated, the officer will review the
application with the parent or legal guardian. During the interview, an EC officer must
verify the biographical and vehicle data from the GES record. Appendix H shows relevant
areas that the EC officer must address in the interview to make a low-risk status
determination. During the interview, EC officers should be cognizant of deceptive
behavior by the applicant, and are required to ask follow up questions for any responses
that fail to address the issues raised during the interview.

When an issue arises during an interview, such as the derogatory information returned
on an applicant is inaccurate and requires certified copies of criminal records to verify
the applicant was not guilty, the EC allows the applicant 30 days to resolve the issue. An
applicant who does not submit the required documentation within 30 days will be
deemed ineligible for the program, with GES comments updated to reflect the status.




4
 Any participant, regardless of age, who seeks to use Global Entry privileges in addition to SENTRI
benefits, must be fingerprinted.

www.oig.dhs.gov                                      7                                          OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Scanning Documents

As of June 2007, CBP does not retain paper files on any TTP applicant or member; all
files are electronic. To ensure that CBP has a complete record of the application process,
EC officers must scan verified documents into GES. Documents that must be scanned
include the following:

    •	 Birth Certificate (if submitted);
    •	 Foreign passports only when required to validate a visa;
    •	 Certified letter of alternative vehicle owner – personal or company owned
       vehicle (SENTRI only);
    •	 Court dispositions to include rulings of emancipation (if applicable);
    •	 Proof of legal name change (if applicable);
    •	 Legal guardianship/adoption documents;
    •	 Letters of inquiry received from members/applicants on denials and revocations;
       and
    • Foreign vehicle registrations 


After the interview, documentation review, and biometrics collection, the EC officer
may approve or recommend that the applicant be denied TTP membership.
Recommendations for denial must include the officer’s reasoning and be reviewed by an
EC supervisor. When the EC supervisor has determined that an applicant should be
denied participation in a TTP, GES must be updated to indicate the reason(s). The
update must include the TECS record number, when applicable, and the name of the
supervisor who made the final decision.5

Collecting Fees

Once an applicant has been approved, the officer or contract staff at the EC will collect
the appropriate fees. As of August 2013, the fee for SENTRI membership was $122.25.
Applicants must pay $25 non-refundable application fee at the time of application;
however, the remaining $97.25 for fingerprints and DCL system cost fee is collected
after the EC interview. 6 When an applicant is denied membership following the EC
interview, the EC officer must still charge the $14.50 fingerprint fee. EC officers or
contract staff may also collect fees for replacement membership cards or to add or
change a vehicle.
5
  TECS is an information sharing platform that allows users to access different temporary and permanent
enforcement, inspection, and operational records relevant to the anti-terrorism and law enforcement
mission of CBP and numerous other Federal departments and agencies.
6
  Program fees may also be paid online through GOES. Those applicants who submit payment for all
program fees and are denied may be refunded certain fees paid.

www.oig.dhs.gov                                    8	                                         OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Inspecting Vehicles

After enrollment approval, the Consolidated Trusted Traveler Programs Handbook
requires that all registered SENTRI vehicles receive a        inspection by a CBP
        7
officer. The purpose of the          inspection is to examine the areas of the vehicle
most often used for smuggling narcotics, other contraband, and persons. CBP chose the
target areas for its        inspections based on local research and trend analysis of
seizures along the southern United States border. The inspection pattern varies based
on the make and model of the vehicle. The            inspection includes the following
areas:




In addition to the         inspection, the vehicle may also be examined by the Vehicle
and Cargo Inspection System, Z Portal, or canine teams, where available.8, 9 CBP uses
specially trained canines for the detection of weapons, contraband, narcotic drugs,
abused medication, alcohol, firearms, and explosives. Once the vehicle is inspected, the
EC officer places a SENTRI decal on the vehicle’s windshield. As of June 27, 2013, the
issuance of SENTRI decals has been discontinued.

Briefing Approved Applicants

EC officers must provide approved applicants a briefing of the TTP and procedures
specific to the TTP for which they received membership. SENTRI members receive
briefing points to include the rules and regulations of the program, as well as
instructions for DCL use. Appendix I includes a list of information that EC Officers must


7
  The Consolidated Trusted Traveler Programs Handbook establishes the policies and procedures for all 

TTPs, including member enrollment and inspection processes at POEs.

8
  The Vehicle and Cargo Inspection System scans cargo containers, trucks and other vehicles in high-

volume operations. Its x-ray imaging and radiation scanning help security personnel intercept weapons, 

nuclear material, and other contraband hidden in containers. It scans entire vehicles, bumper to bumper, 

and roof to tires, including occupants. 

9
  The Z Portal drive-through inspection system is designed to scan large trucks, buses, and cargo 

containers. It provides photo-like images from the top and sides simultaneously, and quickly highlights

organic threats and contraband, such as stowaways, explosives, drugs, and alcohol. 


www.oig.dhs.gov                                     9                                          OIG-14-32
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


brief to SENTRI members. In addition, before approving final applicant membership, the
EC officer must:

     •	 Confirm the applicant understands the program requirements, and confirm the
        applicant understands that any violation of program and legal requirements for
        border crossing by the enrollee may be dealt with more severely because of
        his/her trusted traveler status.
     •	 Advise applicants of measures to be taken in the event they are approached to
        engage in smuggling activities, including calling the 1-800-BE ALERT or 1-800­
        232-5378 hotline to report potential smuggling attempts and contacting the local
        EC.
     •	 Explain potential sanctions for participation in smuggling activities, including:
             � Prosecution to the fullest extent of the law;
             � Revocation of membership in all TTPs; and
             � Possible revocation of TTP membership for all related family members.

Issuing SENTRI Membership Documents

Once SENTRI applicants are approved, GES generates a notification for an RFID card to
be mailed to new members. The Government Printing Office produces and mails the
RFID cards to a U.S. address within 7 to 10 business days after approval. When an
applicant lives in Mexico, the applicant must provide a U.S. mailing address because CBP
will not mail the cards to Mexico. The applicant may provide the address of a friend or
family member in the United States. CBP will also mail membership cards to a U.S. post
office box. After receiving the card, the member must activate it by using the GOES
webpage. The member has 30 days to activate the card, or the card will not be usable at
border crossing. Members must have activated cards to use the SENTRI DCLs.

24-Hour Enforcement Vetting

Once an applicant is conditionally approved at the VC, CBP ensures trusted traveler
continued eligibility by performing daily checks of biographic information against law
enforcement information. The CBP-Enforcement Vetting System (CBP-EVS) is a web-
based software that permits CBP users to query TECS lookouts and National Crime
Information Center wants and warrants. 10 A new CBP user must initiate the request for
access to CBP-EVS before the account manager can approve user access. The account
manager will review the request and determine whether to authorize system access. In

10
  The National Crime Information Center is a Federal Bureau of Investigation computerized index of
criminal justice information, such as criminal record history information, fugitives, stolen properties, and
missing persons.

www.oig.dhs.gov                                      10	                                          OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


addition, each user must have an active TECS profile and be National Crime Information
Center certified to review the results of these data system queries.

The CBP-EVS automatically submits TECS and National Crime Information Center vetting
requests on all trusted travelers in GES every evening. No action is required on the part
of the users to submit this request. Every 24 hours, CBP-EVS returns location-specific
derogatory information or potential match to a data system record, reports to each EC.

                                                                    As part of the
continuous vetting process, CBP officers review the details of all potential derogatory
information to determine whether the trusted traveler is actually an exact match to the
record. These reviews must be performed in CBP-EVS, which records the identity of the
reviewing officer.

Initially, the VC was conducting enforcement vetting for all TTPs except for SENTRI; POEs
performed this duty because the VC was unable to handle the workload. CBP’s Office of
Information Technology has since changed the vetting algorithm and placed a filter in
the CBP-EVS to refine derogatory information returns, resulting in a more manageable
workload. As of June 3, 2013, the VC also conducts SENTRI enforcement vetting.

CBP officers create a Primary Lookout Override for an individual who is determined not
a match to the record. The Primary Lookout Override is important to ensuring members
can continue to use the TTPs without unwarranted inconvenience due to false matches
to derogatory information. When an officer determines that a member is a match, the
member may have his or her TTP benefits revoked.



When a member’s status is revoked, CBP retrieves, deactivates, and mails the RFID card
to the Government Printing Office.




www.oig.dhs.gov                            11                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security




Denial and Revocation Redeterminations

In January 2007, CBP established an Ombudsman position to review TTP membership
revocations and denials where the applicant claimed the decision was based on
incorrect information. CBP created the Ombudsman position because of numerous
complaints and inquiries from individuals seeking redetermination. Although CBP
regulations do not allow for a formal appeal of the decisions, CBP determined that a
process was needed to address such claims and created a process for corrective action
where appropriate. The Ombudsman works 



When applicants or members believe they were denied entry into a TTP or had their
membership revoked based on inaccurate information, they may contact an EC to
schedule an appointment to speak with a supervisor. When the EC supervisor assesses
that the decision may have been based on incomplete information, the supervisor may
contact the Ombudsman for a review of the case on behalf of the applicant. ECs also
provide denied applicants or revoked members information on how to fax, email
message, or write a letter to the Ombudsman directly with supporting information that
can demonstrate that the denial or revocation was based on incorrect or inaccurate
information.

The Ombudsman will respond, in accordance with CBP policies and procedures, to
inquiries from denied or revoked TTP applicants. The Ombudsman, with the
concurrence of the              has the discretionary authority to approve membership
for those who do not meet program eligibility criteria and the Strict Standard Policy,
when it is determined that the applicant presents a low risk. When the Ombudsman
approves TTP membership, ECs may not overturn that decision unless new information
is available.

Land Port of Entry Technology

Since 2009, all lanes at southern United States land border POEs have the same
technology and the ability to read RFID enabled documents. This technology includes
license plate readers, RFID card readers, and Vehicle Primary Client access to the DCL




www.oig.dhs.gov                            12                                   OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


mode.11 All CBP officers use the Vehicle Primary Client system at the inspection booth to
conduct queries on passengers and vehicles, and to receive alerts regarding
enforcement actions. Officers at POEs along the southern border log into the DCL mode
only in SENTRI lanes. DCL mode automatically triggers an alert any time that a non­
member comes through a SENTRI lane.

Technology standardization at POEs allows port management to open as many SENTRI
lanes as the port infrastructure will allow. When the SENTRI border crossing waiting
time is more than 15 minutes, management may open another SENTRI lane. In addition,
when a reader is damaged, port management may close the lane and open another until
repairs are complete.

CBP conducts “primary inspections” to determine whether travelers are compliant with
applicable entry rules and regulations. CBP then conducts “secondary inspections” when
a CBP officer determines that further inspection processes are necessary to grant a
traveler’s entry into the United States.

Primary Inspections

When an approved SENTRI member approaches the southern United States land border,
traffic signs direct the member to SENTRI DCLs. Because these TTP members are vetted
by the same standards and receive RFID cards, it is also possible for a Global Entry or
NEXUS member to use SENTRI lanes when the member is in a SENTRI enrolled vehicle.
As the driver approaches the primary inspection booth in the DCL, a front license plate
reader is activated. As the vehicle passes the front plate reader, a second reader is
activated for the rear license plate. Plate readers use optical character recognition to
read the plates.

Prior to arriving at the booth, the driver will also pass an RFID reader, as displayed in
figure 1. The driver must hold all passengers’ RFID-enabled SENTRI cards to the reader.
Member data is stored on a CBP data system, not on the SENTRI cards so that a third
party cannot access member information should a card be lost or stolen. All of the
information from the plate readers and the scanned documents is sent to the CBP
officer’s Vehicle Primary Client system. The system takes all of the information and
displays it on one computer screen so that the CBP officer can see the data.




11
  The Vehicle Primary Client software application provides CBP officers with a modern, highly productive
interface to present traveler data obtained from RFID and license plate readers, and perform queries
against secure CBP and other department and agency data systems.

www.oig.dhs.gov                                    13                                         OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Figure 1: SENTRI Card Reader





Source: CBP.

If the initial RFID reader did not capture all passengers’ SENTRI cards, the officer in the
primary booth must scan the cards at the reader in the booth or manually enter card
information. The CBP officer ensures that the correct license plate and personally
identifiable information has been queried in TECS so that the vehicle and passengers can
be vetted against the National Crime Information Center and Automated Targeting
System (ATS). 12 The members are also vetted against intelligence databases from the
Federal Bureau of Investigation, Drug Enforcement Agency, and International Criminal
Police Organization. Officers may also see “Be on the Lookouts” from State, county, or
other local law enforcement agencies for specific car makes and models. If the officer’s
Vehicle Primary Client display returns derogatory information against these data
systems, 


Officers operating the DCL may also see alerts to refer members to secondary for
compliance examinations and other notices that require officers to conduct vehicle area
checks or refer members to secondary inspections. 13 CBP has an automatic system in
place to ensure that all SENTRI members are referred to secondary at random border
crossing intervals.

The Vehicle Primary Client may also alert the officer of SENTRI card expirations. It is
possible for the expiration date on the card to reflect that the card has expired, while


12
   ATS compares existing information on individuals and cargo entering and exiting the country with 

patterns identified as requiring additional scrutiny. 

13
   Compliance examinations are random selections of vehicles that would ordinarily not be selected for an 

intensive examination. 


www.oig.dhs.gov                                    14                                          OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


the member is still active in the program. 



The officer questions the passengers regarding their travel and declarations, as
displayed in figure 2. CBP Officers on primary inspection will also look for the vehicle
and passenger crossing history. When the officer has any level of suspicion, he or she
can perform a quick inspection of the vehicle, or send the vehicle to secondary
inspection. When the CBP officer is satisfied that all regulations are met, and no
mandatory referral messages are generated in the Vehicle Primary Client, the vehicle is
released from primary and allowed to enter the United States.

Figure 2: CBP Primary Lane Inspection




Source: CBP.

Should a non-SENTRI member drive into a SENTRI lane, CBP officers will know because
member information will not appear on the DCL mode display. The primary lane officer
must refer to secondary any vehicle carrying non-members attempting to pass through
the DCL, except in the following cases:

     •	 Emergency vehicles responding to an emergency.
     •


     •	 Any person or group who has requested and received prior permission from the
        Port Director or DFO to use the DCL. The officer will perform a regular (non­
        trusted traveler) inspection on such travelers. When such permission is granted,
        the travelers will be informed that planned regular use of the DCL, even while
        traveling on official duty, will require enrollment in the program.




www.oig.dhs.gov                                15	                              OIG-14-32
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Secondary Inspections

Secondary inspections allow more time for a thorough inspection than at the primary
lane. When a primary lane officer decides to refer someone for secondary inspection, he
or she should escort the vehicle, walking alongside it while holding a handheld tire
shredder, in case the driver tries to flee. Physical security features to prevent port
runners vary by POE, but may include a combination of



The following are to be considered mandatory referrals for secondary inspection:

    •	 Compliance examinations and SENTRI generated random referrals.
    •	 All TECS alerts.
    •	 Members who do not have a valid trusted traveler card in their possession.
    •	 Members using a DCL with unauthorized passengers.
    •	 Compliance blitzes and enforcement operations.
    •	 Participants who fail to declare goods, such as agricultural, merchandise, duty
       free, and commercial goods.
    •	 Officer generated referrals when suspected TTP or CBP regulations are violated.
    •	 Unauthorized non-SENTRI vehicles.

Referrals from primary DCLs should be given priority in secondary inspection. The CBP
officer will obtain a verbal customs declaration, verify the participants’ travel
documents, and conduct a             inspection of the vehicle. The officer will also conduct
law enforcement queries through TECS and other data systems. The CBP officer at
secondary inspection may also perform simple questioning or a full inspection relating
to issues such as admissibility, customs, baggage, or agricultural, based on the
circumstances of the referral.

As a result of a violation confirmed during secondary inspection, officers may confiscate
the SENTRI card and forward it to the local EC along with an incident report. The EC
supervisor can suspend the member for up to 14 days.

                  a CBP officer can confiscate the card.

CBP’s Efforts To Address Officer Integrity Issues and Insider Threats

To address officer integrity within CBP, the Office of Internal Affairs (IA) has several
divisions dedicated to investigating and mitigating misconduct. These include the
Integrity Programs Division, the Operational Field Testing Division, the Credibility

www.oig.dhs.gov                              16	                                    OIG-14-32
                                OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Assessment Division, and the Investigative Operations Division. In addition, OFO has
established the Analytical Management Systems Control Office (AMSCO) and trained
personnel as integrity officers to serve in the field.

The Integrity Programs Division is the research, analysis, and education component of
IA. Beginning in 2007, the division was authorized by CBP leadership to expand its
capacity to move from a reactive posture, primarily conducting post-case analysis work,
to a strategic and proactive stance. Now analysts and behavior research specialists work
collaboratively to identify potential acts of corruption and misconduct, identifying
potential vulnerabilities in CBP operations, providing research and analytical support to
ongoing investigations, and isolating behavior potentially indicative of corruption and
misconduct. The division drives the detection, deterrence, and prevention of
misconduct and corruption in the CBP workforce through proactive measures in three
functional areas: Data and Trend Analysis; Integrity Awareness and Anti-Corruption
Training; and Behavioral Research Branch.

The Operational Field Testing Division performs covert testing to identify compliance,
vulnerabilities and systemic weaknesses in CBP’s multilayered security systems,
personnel, technologies, policies, and procedures.

Within the Security Division of CBP IA, the Credibility Assessment Division is responsible
for the polygraph pre-employment screening program for CBP law enforcement
applicants. In February 2008, the Credibility Assessment Division conducted its first
polygraph screening of applicants in Dallas, TX, in collaboration with CBP’s Personnel
Security Division, several Human Resource Management offices, and Border Patrol. Of
the applicants tested, 58 percent failed to complete the polygraph successfully and were
confirmed unsuitable for the positions. In January 2011, the Anti-Border Corruption Act
of 2010 mandated conducting pre-employment polygraph screening for all CBP law
enforcement applicants by January 2013.14

The Investigative Operations Division manages CBP’s Joint Intake Center, which serves
as the central “clearinghouse” for receiving, processing, and tracking misconduct
allegations involving CBP and U.S. Immigration and Customs Enforcement personnel and
contractors. All misconduct allegations are coordinated with DHS’ Office of Inspector
General (OIG), which has the first right to investigate or refer allegations to the
appropriate DHS components for investigation, fact-finding, or management action.

The Investigative Operations Division maintains a core staff at IA headquarters in
Washington, DC, and a force of approximately 200 special agents assigned to every CBP

14
     P.L. 111-376, Section 3.

www.oig.dhs.gov                              17                                 OIG-14-32
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


field office nationwide. In fiscal year (FY) 2012, the division processed or monitored
6,823 allegations of misconduct and other reportable incidents involving current or
former CBP employees, contractors, civilians, or unknown subjects through the Joint
Intake Center.15 It also documented, investigated, or tracked 339 employee arrests. Of
the 339 total arrests, 11 involved corruption or mission-compromising corruption
charges.

Additionally, in 2009 OFO established AMSCO after identifying high levels of officer
misconduct. When CBP officers involved in misconduct were asked why they did so,
they answered, “Because no one was watching.” AMSCO proactively monitors officer
activity at POEs and equips port management with tools to enhance their oversight
capabilities.

Examples of SENTRI Program Insider Threats and Officer Integrity Issues

As previously mentioned, CBP’s SENTRI Program accelerates the inspection of pre-
enrolled travelers at designated land POEs along the United States southern border.
However, some SENTRI members have abused their privileges and transported illicit
goods across the border. For example, in January 2012 a SENTRI participant was
apprehended at a POE with $1 million in methamphetamines. Also, recently smugglers
and drug traffickers have targeted SENTRI participants as conduits for illegal cross-
border activities. For example, during 2011 CBP discovered 8 to 10 cases in the El Paso,
TX area where SENTRI members had been caught crossing the border with drugs, but
unbeknownst to the member, the drugs were placed in or on the vehicle by drug
trafficking organizations.

In addition, some CBP officers serving at POEs potentially pose an insider threat. For
example, in January 2013 a CBP officer was convicted of allowing a wanted fugitive to
enter the United States from Mexico without inspection. While on duty, the CBP officer
entered false information about the fugitive’s vehicle into a government data system,
which allowed ingress through the SENTRI DCL. As evident in this case, effective internal
controls are essential for the program to deter and detect illegal activity.




15
 The Joint Intake Center serves as the central point for receiving, processing, and tracking allegations of
misconduct by CBP and U.S. Immigration and Customs Enforcement personnel and contractors.

www.oig.dhs.gov                                     18                                           OIG-14-32
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Results of Review
We have noted significant improvements in CBP’s SENTRI Program implementation.
Since our initial review in 2004, CBP has enhanced internal controls in SENTRI processes
and established initiatives to address officer integrity issues.16 However, CBP needs to
expand upon these initiatives and address challenges in the SENTRI Program enrollment
process. Although CBP has an Ombudsman to review and address redetermination
requests, the manual process needs to be enhanced through technology solutions.

           CBP Has Made Progress in the SENTRI Application, Enrollment, and Inspection
           Processes

           CBP has automated TTP enrollment processing, and all TTPs use the same
           application, initial vetting, enrollment, and redetermination processes and
           systems. Prior to 2008, officers could create membership cards at the ECs, but
           now the Government Printing Office manages the creation and distribution of
           membership cards. In conjunction with enhanced security features in
           membership cards, CBP has made technology improvements at the POEs. CBP
           has eliminated the issuance of SENTRI windshield decals, which enabled criminal
           organizations to identify trusted travelers to smuggle illegal drugs and
           contraband. Furthermore, to eliminate inconsistencies in enforcement vetting
           practices, CBP transitioned the responsibility for all TTPs to the VC.

           All Trusted Traveler Programs Operate on the Same Platform Allowing
           Information To Be Shared Immediately Between Programs

           The SENTRI, NEXUS, and FAST Programs pre-date the creation of the Department
           and were designed and implemented by legacy Immigration and Naturalization
           Service and U.S. Customs Service. Subsequently, the biographical and biometric
           data collected from TTP program applicants and members was stored in localized
           application and enrollment processes, and several stand-alone POE-level data
           systems. As each program conducted application, enrollment, and background
           checks in a similar manner, CBP developed a consolidated and more efficient
           national approach and support structure, and then adopted the GES in 2006.
           Currently, GES supports all CBP TTPs. For these programs, GES is the sole
           repository for application, enrollment, and background investigation data.

           GES can be accessed from the VC and all ECs, and allows CBP officers to share
           information across TTPs. Furthermore, CBP’s ability to standardize the risk

16
     OIG-04-14, A Review of the Secure Electronic Network for Travelers Rapid Inspection Program.

www.oig.dhs.gov                                      19                                         OIG-14-32
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


       assessment process through GES reduces the administrative burden on CBP to
       re-vet applicants, and the need for individuals to provide redundant data for
       applications to multiple programs.

       While GES streamlined the TTP enrollment process, TTP growth outpaced VC and
       EC resources. CBP enrolled 289,263 new TTP members in FY 2011 and 414,367
       new TTP members in FY 2012. The increase in TTP applications resulted in
       backlogs at all stages of the enrollment process. For example, as of
       June 30, 2013, 112,125 applications were pending processing at the VC.
       However, as shown in table 3, only 15 percent are SENTRI applications.

       Table 3: Applications Pending Processing as of June 30, 2013
           Trusted Traveler        Applications Pending
                                                               Percentage of Total
                Program                   Vetting
        Global Entry                        48,256                     43%
        NEXUS                               45,805                     41%
        SENTRI                              17,323                     15%
        FAST                                  741                       1%
        Total                              112,125                     100%
       Source: CBP Program Data.

       To address the backlog, CBP authorized officer overtime and extended operating
       hours at the VC and ECs. Between June 4, 2013, and July 29, 2013, CBP also
       increased the number of temporary duty officers assigned to the VC.

       CBP Improved the Security and Functionality of the SENTRI Membership Cards

       When we conducted our SENTRI Program review in 2004, EC officers produced
       and distributed membership cards to applicants. This presented an opportunity
       for anyone with EC access to create and provide a SENTRI card without an
       individual completing the enrollment process. Therefore, to improve security
       and internal controls over the TTP membership cards, in May 2008 the
       Government Printing Office began to design, produce, and distribute TTP
       membership cards on CBP’s behalf. CBP encrypts member identity information
       prior to sending it to the Government Printing Office. The Government Printing
       Office designed the cards with electronic and printed security features.
       Embedded technology in the card also helps CBP officers verify the cardholder.
       Once the Government Printing Office creates a card, it is attached to an insert,
       combined with a letter to members with activation instructions, and mailed to
       the recipient.

www.oig.dhs.gov                           20                                   OIG-14-32
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         CBP Has Made Technology Improvements at the Ports of Entry

         In implementing the Western Hemisphere Travel Initiative at United States land
         borders in June 2009, OFO transformed the way CBP conducted business at the
         POEs. 17 For example, RFID technology, improved license plate readers, and
         Vehicle Primary Client are now integral to CBP operations and provide additional
         security measures. According to the February 26, 2013, congressional testimony
         of CBP officials, in 2005 CBP performed law enforcement queries at land borders
         for only 5 percent of travelers. 18 Now, CBP has been able to increase the national
         law enforcement query rate to more than 98 percent of all travelers, allowing
         officers to make better admissibility determinations and interdict dangerous
         persons.

         OFO’s Land Border Integration is responsible for deploying technology and
         equipment at the POEs. Since 2009, all lanes at the southern United States land
         border POEs have been equipped with the same technology, including license
         plate and RFID readers. This enables designated SENTRI POEs to open as many
         SENTRI DCLs as allowable given port infrastructure. The majority of CBP Officers
         and supervisors we interviewed responded positively about the technology
         associated with the SENTRI Program. For example, they said the RFID reader
         properly reads SENTRI cards more than 90 percent of the time.

         However, CBP officers said the license plate readers 





         CBP Eliminated the Issuance of SENTRI Windshield Decals, Which Had Enabled
         Criminal Organizations To Identify SENTRI Authorized Vehicles

         During our site visits in April 2013 and May 2013, we observed CBP officers
         placing a SENTRI windshield decal to vehicles that passed the        inspection.
         The SENTRI decals were originally intended to identify SENTRI members to CBP
         officers, but port technology enhancements have rendered the decals obsolete.


17
   The Western Hemisphere Travel Initiative requires all citizens of the United States, Canada, Mexico, and 

Bermuda to have a passport or other accepted document that establishes the bearer’s identity and 

nationality to enter or depart the United States from within the Western Hemisphere.

18
   U.S. House Committee on Homeland Security, Subcommittee on Border and Maritime Security hearing, 

What Does a Secure Border Look Like?, February 26, 2013.


www.oig.dhs.gov                                     21                                           OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Since FY 2010, CBP has spent more than $106,000 on SENTRI decals. CBP officials
       discussed eliminating SENTRI windshield decals; however, it was not until
       June 27, 2013, that CBP discontinued SENTRI decal issuance.

       The decals allowed smugglers to identify SENTRI authorized vehicles and use
       members to move drugs and other contraband across the southern border
       without the members’ knowledge. For example, in July 2011 two drug
       conspirators in El Paso, TX were charged with recruiting people, “spotters,” to
       watch SENTRI lanes to collect information on SENTRI members and vehicles. The
       spotters collected vehicle make and model information, as well as when and
       where the vehicles crossed the border. The spotters also followed the vehicles,
       and when the vehicles were parked, recorded the vehicle identification numbers.
       According to a Federal indictment, the drug conspirators used the vehicle
       identification numbers to have keys made so they could place bundles of
       marijuana in the trunks of the targeted SENTRI vehicles. Unsuspecting drivers
       would then carry the drugs across the border from Mexico to the United States.

       There were several similar cases in the El Paso, TX area where SENTRI members
       had been caught crossing the border with drugs, but were unknowing victims. At
       least one of the unsuspecting victims spent 6 months in jail before a U.S. District
       Judge began to notice similarities in cases. The traffickers usually target students
       and professionals because they have regular border crossing schedules.

       According to a SENTRI program manager, an email message was sent out to
       SENTRI members explaining that they were responsible for the vehicle and
       everything in it. Members are encouraged to check their cars before attempting
       to cross the border to ensure they have not been targeted. Although spotters
       can still identify SENTRI members by sitting at or near the border and observing
       passengers, eliminating the use of the SENTRI decal mitigates risk and provides
       cost savings to the Department.

       Moving Enforcement Vetting from the Enrollment Centers to the Vetting
       Center Reduces Inconsistencies

       CBP relies on continuous daily data system checks to verify the low-risk status of
       TTP members. The Consolidated Trusted Traveler Programs Handbook requires
       that EC personnel review all potential derogatory information records in the
       CBP-EVS to determine whether the record pertains to a trusted traveler.

       The five ECs we visited performed enforcement vetting differently. For example,
       one EC designated a CBP officer to perform these duties for two local ECs. At the

www.oig.dhs.gov                             22                                    OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       three other ECs, enforcement vetting was a collateral duty with CBP officers
       taking turns to complete the task. Two of the three ECs did not always conduct
       daily enforcement vetting, and CBP officers at one EC said that they may forget
       to perform the vetting for up to 5 days.

       All five ECs verified the biographic information to determine whether a SENTRI
       member was a match to derogatory information records and annotated the
       determination in the GES comments. The officers then forwarded matches to the
       EC supervisor to revoke memberships as appropriate. The level of research
       conducted on matches, however, varied across the ECs, with

                                                 Some ECs also performed manual
       vehicle crossing checks and added

       At two ECs, officers conducting enforcement vetting coordinated with TECS
       record holders, such as U.S. Immigration and Customs Enforcement, to establish
       links and provide additional findings based on their research.
                                                              The other EC officers relied 

       on the supervisor to communicate with DHS components and external
       departments and agencies.

       Effective June 3, 2013, enforcement vetting functions for the SENTRI Program
       transitioned from the ECs to the VC to centralize and standardize vetting across all
       TTPs. Because VC officers perform enforcement vetting for all other TTPs, the
       addition of SENTRI has not increased the workload significantly. The VC has
       designated experienced officers for this function, which provides more consistency.

       CBP Has Established Initiatives To Address Officer Integrity Issues, But
       Improvement Opportunities Remain

       CBP has increased its officer integrity initiatives by assigning officers unique
       identifiers when accessing systems, prohibiting officers from processing family
       members and close acquaintances, developing lane duty policies, assessing the
       affect of hometown assignments, conducting covert testing, and performing pre­
       employment polygraph screening. To deter officer misconduct, CBP has also
       established AMSCO to detect and address anomalies in officer activity and has
       publicized officer convictions on an internal CBP website. However, additional
       improvements can be made in communicating lane schedules, policy
       enforcement, and officer duty assignments. CBP can also pursue random
       polygraph screening for current employees and expand covert testing to all TTPs.


www.oig.dhs.gov                             23                                    OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


       CBP Assigns System Users Unique Identifiers

       All CBP officers have a unique identifier that must be used to log into CBP data
       systems, including the VCM, GES, Vehicle Primary Client, and DCL. In addition, all
       officer logons and actions are annotated in each data system. This allows CBP to
       query officer activity. The VC supervisors use this function to conduct monthly
       audits, while AMSCO uses it to identify integrity issues.

       CBP Policy Requires Officers To Avoid Interviewing or Inspecting Family
       Members and Close Acquaintances

       According to the March 13, 2012, Directive, CBP Standards of Conduct, Section
       6.2 Prohibited Actions,

                  [E]mployees will avoid any action, whether or not specifically prohibited
                  by these Standards of Conduct, which might result in, or reasonably
                  create the appearance of: using public service for private gain; giving
                  preferential treatment to a private organization or individual in
                  connection with official government duties and/or responsibilities…

       As such, CBP officers should not conduct TTP vetting or adjudication of family
       members or close acquaintances. This applies to both the primary and secondary
       inspection lanes at a POE and to EC TTP processing.

       When a CBP lane officer has a direct relation to someone crossing the border at
       a POE, the officer must excuse himself or herself from the inspection, get
       another officer to process the person, and advise a supervisor. However, at one
       POE, two CBP lane supervisors we interviewed said that they do not have special
       procedures for referring family members or close acquaintances. In addition, the
       supervisors said that officers crossing the border are treated as any other
       member of the public.

       EC supervisors should conduct enrollment interviews for CBP officers applying
       for SENTRI; however, at least one EC supervisor we interviewed did not.
       Enrollment officers should also refer family members to the supervisors and
       refer persons they know to other officers for processing. At some smaller ECs, EC
       officers have processed family members or close acquaintances, but annotated
       their relationship to the applicants in GES comments. Although there may be no
       issues of misconduct, these measures are taken to avoid the appearance of
       possible misconduct.



www.oig.dhs.gov                                  24                                      OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:

       Recommendation #1:

       Disseminate a memorandum to all Enrollment Center leadership that reiterates
       the referral process for CBP family members, close acquaintances, and CBP
       personnel applying for SENTRI membership.

       Management Comments and OIG Analysis

       We evaluated CBP’s written comments and have made changes to the report
       where we deemed appropriate. A summary of CBP’s written response to the
       report recommendations and our analysis of the response follows each
       recommendation. A copy of CBP’s response, in its entirety, is included as
       appendix C.

       In addition, we received technical comments from CBP and incorporated these
       comments into the report where appropriate. CBP concurred with 16
       recommendations, and did not concur with 1 recommendation in the report. We
       appreciate CBP’s comments and contributions.

       Management Response to Recommendation #1: CBP officials concurred with
       Recommendation 1. In its response, OFO’s Trusted Traveler Programs Division
       said it will issue a memorandum reminding CBP officers that the enrollment
       interview is the equivalent of a primary inspection by regulation, and as such,
       the same standards apply to enrollment interviews as to primary and secondary
       inspections.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 1, which is resolved and open. This recommendation will
       remain open pending our receipt of the memorandum disseminated to CBP
       officers regarding the enrollment center referral process.


       Limited Use of Personal Communication Devices and Scheduling Inspection
       Lane Assignments in Real-Time Helps To Mitigate Officer Integrity Issues

       CBP officers are not permitted to have personal items, such as cellular phones or
       any electronic devices, when working primary and secondary inspection lanes.

www.oig.dhs.gov                           25                                   OIG-14-32
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


        Personal cellular phones are only permitted in POE buildings. CBP telephones in
        primary inspection lane booths connect directly to the CBP office and cannot be
        used to make outside calls.

        During fieldwork we learned that scheduling CBP officer lane assignments varies
        from port to port. At one POE, officers are provided lane assignments           in
        advance. At two other POEs, lane assignments are provided              in advance,
        while lane assignments are determined                            at another POE.
        CBP lane supervisors or team leads generate lane assignment schedules. Each
        lane assignment is               but CBP officers may be in a lane for up to
              Officers usually rotate from primary to pedestrian, secondary, or exit lanes.
        At some of the larger POEs, officers may have


        Regardless of when the lane assignments are provided to officers, CBP’s
        Combined Automated Operations System directs lane shifts
        which is not reflected in the master assignment schedule for a POE.19 These
        shifts are all randomly generated and automated; however, CBP officials
        managing the system can add additional lane shifts when necessary. While the
        SENTRI lanes are typically included in the Combined Automated Operations
        System lane shifts, SENTRI lanes are not always included in the other random
        lane adjustments or supervisor-directed operations at POEs.

        Limiting the use of personal communication devices and scheduling real-time
        lane assignments helps to mitigate CBP officer integrity issues. For example, in
        March 2013 a CBP officer was convicted on bribery and smuggling charges for
        receiving bribes to admit more than 100 undocumented aliens through a POE by
        providing his on-duty lane assignment information to drivers. Ensuring that
        officers do not have access to personal cellular phones or electronic devices,
        while on-duty, is an important integrity measure implemented by CBP. In
        addition, providing limited advance notice of lane assignments is prudent to
        mitigate opportunities for officers to communicate their assignments.

        Recommendation

        We recommend that the CBP Assistant Commissioner, Office of Field Operations:



19
  The Combined Automated Operations System is a CBP web-based software application used to
schedule, announce, record, and report enforcement operations, including lane manipulations at land
border POEs.

www.oig.dhs.gov                                   26                                        OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendation #2:

       Establish the process of providing minimal advance notification of lane
       assignments to CBP officers. Additionally, ensure that lane assignments are
       random so as to not follow a pattern.

       Management Comments and OIG Analysis

       Management Response to Recommendation #2: CBP officials concurred with
       Recommendation 2. In its response, OFO said it provided guidance to the field
       officers in the form of a memorandum directing managers to minimize advance
       notification of lane assignments to CBP officers. In addition, the guidance said
       lane assignments should be random.

       OIG Analysis: We consider CBP’s actions response to the intent of
       Recommendation 2, which is resolved and open. However, this recommendation
       will remain open pending our receipt of documentation that the written
       acknowledgement and completion of actions in the November 2013 Lane
       Assignment Memorandum have occurred.


       CBP Assesses Its Hometown Assignment Policy

       In FY 2012, IA’s Integrity Programs Division developed and implemented a
       research and development project focused on the South Texas Campaign area of
       operations as a method to preempt and disrupt efforts of transnational criminal
       organizations to infiltrate or compromise CBP’s workforce. Focusing on leading
       threat indicators, CBP developed and implemented the South Texas Campaign to
       identify and address current and emerging threats along the South Texas border.
       Through intelligence-sharing, integration of law enforcement resources, and
       enhanced coordination and cooperation with the Government of Mexico, the
       South Texas Campaign conducts targeted operations to disrupt and degrade the
       ability of transnational criminal organizations to operate throughout the South
       Texas Corridor, while simultaneously facilitating legitimate trade and travel.

       A CBP officer’s hometown was considered to be within a mile radius of an
       assigned duty location. When CBP assigns an officer or agent to his or her
       hometown, it increases the likelihood of having a connection with family or
       friends in the area, and may risk and officer or agent placing that connection
       above the CBP mission when the two intersect. The issue becomes compounded


www.oig.dhs.gov                           27                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       when family or friends have a criminal history, as IA’s research determined that
       some officers and agents did have criminal associates.

       Border Patrol later established a policy that agents could not be assigned to their
       hometown; however, Integrity Programs Division officials did not know whether
       any changes were made for CBP officers. At integrity training, CBP officers did
       express that being assigned to one’s hometown could pose a problem. CBP had a
       policy that prohibited hometown placement, but CBP officials were not able to
       recall when the policy changed to allow hometown placements.

       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:

       Recommendation #3:

       Explore the feasibility and value of limiting CBP Officer hometown region
       assignments to further mitigate the risk of officer or agent misconduct and
       corruption.

       Management Comments and OIG Analysis

       Management Response to Recommendation #3: CBP officials concurred with
       Recommendation 3. In its response OFO’s Mission Support Division will explore
       the operational impacts of limiting CBP officer hometown region assignments,
       and make recommendations to the Assistant Commissioner for OFO.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 3, which is resolved and open. This recommendation will
       remain open pending our receipt of the Mission Support Division’s
       recommendations to the Assistant Commissioner for OFO to limit CBP officer
       hometown region assignments.


       CBP Conducts Some Covert Testing, But Additional Testing at SENTRI Ports of
       Entry Is Needed

       The Operational Field Testing Division conducts a variety of covert testing;
       however, covert testing for the TTPs has only included Global Entry. Division
       officials are planning SENTRI lane covert testing, and will identify SENTRI POEs
       and work with field offices to develop operational plans and procedures. The

www.oig.dhs.gov                            28                                    OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        Division was unable to travel and conduct any covert testing from March 2013 to
        June 2013 as a result of sequestration, which restricted travel funding.20

        Operational Field Testing Division officials believe that CBP officer enforcement
        operations for Global Entry may be less diligent than for other border
        inspections.




        CBP officers we interviewed said they conduct lane inspections between the
        non-SENTRI lanes and the DCLs similarly. None of the officers said they are less
        diligent performing DCL enforcement operations for a trusted traveler lane.
        However, 37 percent of CBP officers interviewed felt pressure from CBP POE
        management to move SENTRI vehicles through primary inspection quickly.

        Recommendation

        We recommend that the CBP Assistant Commissioner, Office of Internal Affairs:

        Recommendation #4:

        Expand covert testing to all CBP Trusted Traveler Programs.

        Management Comments and OIG Analysis

        Management Response to Recommendation #4: CBP officials concurred with
        Recommendation 4. In its response, CBP said IA’s Operational Field Testing
        Division has conducted testing in the Global Entry program and plans to expand
        testing in other TTP areas, to include SENTRI and NEXUS. Additionally the
        Operational Field Testing Division will explore the feasibility of conducting covert
        testing in the FAST program.



20
 The sequestration is a cancellation of budgetary resources. The sequestration implemented in 2013
was a result of the automatic procedures of the Budget Control Act of 2011 to restrain discretionary and
mandatory spending.

www.oig.dhs.gov                                    29                                          OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 4, which is resolved and open. This recommendation will
       remain open pending our receipt of covert testing results for the SENTRI
       Program and covert testing plans for all TTPs.


       CBP Conducts Polygraph Screening of Employment Applicants, But Needs To
       Conduct Random Employee Screening

       During FY 2010, CBP conducted a study to compare the rate of the incidents “of
       record” in its Joint Integrity Case Management System, such as a CBP officer
       knowingly associating with and providing assistance to drug traffickers, for CBP
       officers who received a polygraph examination before hire and those who had
       not. CBP determined that officers were more than twice as likely to be involved
       in incidents of record when not screened by polygraph.

       Prior to implementing polygraph screening for all applicants by January 2013,
       CBP conducted a study in which it polygraph screened 300 applicants who had
       successfully completed the CBP hiring process, including a background
       investigation. Approximately 60 percent failed to complete the polygraph
       examination successfully, and provided admissions that included undetected
       felony crimes, serious drug and illegal alien activity, and an attempt to infiltrate
       CBP on behalf of a drug trafficking organization.

       Officials from IA and OFO want recurrent polygraph screening for CBP officers.
       Several CBP officials indicate it may be necessary for a legislative change and
       extensive negotiations with the CBP’s union to allow CBP to require random
       polygraph screening. In response to the report, IA is establishing a policy that is
       currently under review by leadership. Once the policy is approved, CBP will
       communicate with the union to establish a plan for conducting random
       polygraph screening of all CBP officers. Further, CBP is developing a proposal
       requesting legislative authority to administer periodic polygraph exams, focused
       on corruption, to incumbent law enforcement officers.

       Recommendation

       We recommend that the Commissioner, U.S. Customs and Border Protection:




www.oig.dhs.gov                             30                                     OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendation #5:

       Develop and implement a plan with CBP’s union to establish a program to
       conduct random polygraph screening of all CBP officers.

       Management Comments and OIG Analysis

       Management Response to Recommendation #5: CBP officials concurred with
       Recommendation 5. In its response, CBP said it is developing a legislative
       proposal requesting authority to administer periodic polygraph exams, focused
       on corruption, to incumbent law enforcement officers. CBP is also refining its
       polygraph policy in response to discussions with the unions.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 5, which is resolved and open. This recommendation will
       remain open pending our receipt of CBP’s legislative proposal and refined
       polygraph policy.


       CBP Established AMSCO To Deter Officer Misconduct

       AMSCO receives intelligence and information from other DHS components, such
       as U.S. Immigration and Customs Enforcement, but most information comes
       from an analysis of CBP officer activity at POEs. AMSCO has developed
       algorithms that scan officer activity automatically and can be tailored according
       to what information is needed. There are more than        general algorithms
       AMSCO can execute to identify CBP officer anomalies.




       The “Red Flag” operation, established by AMSCO to detect and address officer
       misconduct, employs the Enforcement Link to Mobile Operations (ELMO), which
       is a mobile device that sends a real-time alert to supervisors when an anomaly is
       present at a POE. ELMO was initially developed as a corruption deterrence tool,
       but is also used to address CBP officer training gaps. ELMO provides supervisors
       an integrity snapshot and the ability to train CBP officers immediately when
       procedures are not followed. There are a number of alerts programmed into
       ELMO, such as officer to vehicle pairs and manual data system entries. 



www.oig.dhs.gov                           31                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security




       ELMO was first implemented at California and Arizona POEs along the southern
       United States land border. AMSCO officials received more than        anomalies
       per month prior to deployment at Calexico and now receive approximately
       per month. One AMSCO official said that before ELMO, supervisors were
       reactive, and now supervisors can be proactive. Overall, AMSCO officials said
       that ELMO deployment has improved officer adherence to CBP policies and
       procedures.

       Integrity Officers Work with AMSCO and Field Intelligence Units To Assess CBP
       Officer Misconduct

       During our fieldwork, there were 19 OFO integrity officers nationwide. Integrity
       officers are trained by AMSCO and also serve a 30-day rotation through AMSCO.
       Although AMSCO does not have oversight of the integrity officers, both groups
       work together to determine anomalies in CBP officer processing at POEs. OFO’s
       integrity officers travel to POEs to help perform site surveys, present the Red
       Flag operation, and train staff on ELMO’s use. AMSCO produces nightly reports
       on integrity issues and the office, as well as OFO integrity officers, monitor Red
       Flag operations and can view POE activity remotely.

       Integrity officers brief CBP officers on the requirement to report when they are
       offered a bribe, see an employee commit a criminal act, or are arrested for a
       criminal act. Additional duties include conducting post-arrest and post-seizure
       analysis. For example, when illegal narcotics are seized at an interior CBP
       checkpoint, integrity officers work with CBP field intelligence units to
                            from the time of seizure. Both look to see which POE officer
       processed the vehicle, at what time, and how often the officer violates policy.
       Integrity officers also work through CBP field offices to provide IA with
       operational information needed for their investigations.

       Allegations and Investigations of CBP Officers Involved in the SENTRI Program

       Our review of CBP IA and DHS OIG Office of Investigations data identified 67
       allegations regarding CBP officer misconduct when performing SENTRI Program
       enrollment and lane inspections from FY 2008 to March 2013 and FY 2008 to




www.oig.dhs.gov                            32                                   OIG-14-32
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         May 2013, respectively. 21 In addition, when vetting CBP employees or
         employment applicants for SENTRI enrollment during the same period, there
         were 72 instances when a CBP employee or an employment applicant was
         determined to have derogatory information, including address links to alleged
         drug traffickers. Together, this data raises concerns as to whether persons for
         whom CBP cannot determine low-risk should be employed by CBP or have a role
         in SENTRI Program processes.

         While CBP is developing and implementing multiple programs to combat lane
         officer corruption and misconduct, we are concerned about EC staff who may
         access sensitive information, collect program fees, and approve applications
         without further scrutiny. For example, allegations received by CBP IA and DHS
         OIG Office of Investigations included more than three instances in which one
         SENTRI EC was missing collected program fees. In addition, there were more
         than 20 allegations of EC staff providing SENTRI applicants with sensitive
         information or using their position to benefit family or close acquaintances in the
         SENTRI enrollment process. Such actions are prohibited by Section 6.2 of the CBP
         Standards of Conduct, and in certain circumstances are against the law.

         As an example, one off-duty EC officer went to the EC to

                                           Although this officer was suspended and moved
         to another position, the officer was able to bid for the same EC position the
         following year and rotated back to the EC. Leadership said in this situation there
         was nothing it could do because of the officer’s eligibility for bid and rotation
         according to the union collective bargaining agreement.

         Recommendation

         We recommend that the CBP Assistant Commissioner, Office of Field Operations:

         Recommendation #6:

         Establish and implement a policy to ensure that CBP officers with disciplinary
         action relating to a Trusted Traveler Program are not involved in adjudicating
         membership applications or renewals.



21
   We did not review U.S. Immigration and Customs Enforcement Office of Professional Responsibility
records. While this office frequently receives allegations leading to investigations of CBP employees, these
allegations would most likely be sent to DHS OIG Office of Investigations first.

www.oig.dhs.gov                                     33                                           OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Management Comments and OIG Analysis

       Management Response to Recommendation #6: CBP officials concurred with
       Recommendation 6. In its response, CBP said OFO’s Trusted Traveler Programs
       Division will draft field guidance to the Directors of Field Operations and port
       management, by February 14, 2014, stating that CBP officers with disciplinary
       actions relating to TTPs are not eligible for rotations through the ECs. The draft
       will need to be negotiated through the National Treasury Employees Union and,
       if agreed upon, enforced locally by the port management during the bid and
       rotation process. CBP officials said that discussions with the National Treasury
       Employees Union should be concluded before September 30, 2014, in advance of
       the next bid and rotation cycle.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 6, which is resolved and open. This recommendation will
       remain open pending our receipt of the approved field guidance that ensures
       CBP officers, with disciplinary action related to TTPs, are not involved in
       adjudicating membership applications or renewals.


       CBP Publicizes Officer Convictions on Its Internal Webpage

       After a CBP employee arrest, IA studies the occurrence, discusses how it could
       have been prevented, and identifies and disseminates to CBP managers lessons
       learned to help mitigate recurrence. IA also publicizes CBP employee convictions
       and other public information about misconduct. IA created a webpage on CBP’s
       intranet called “Trust Betrayed,” which posts pictures of employees convicted of
       using their position to commit crimes and includes a description of the crime and
       sentencing. Trust Betrayed bulletins are also sent out to CBP managers
       highlighting the most recent arrests. IA representatives said that this type of
       outreach and training is used to reduce the number of offenses. CBP officers are
       required to attend new employee orientation and integrity training, and to
       complete online annual integrity training.


       CBP Needs To Address SENTRI Program Challenges To Enhance Internal
       Controls

       While CBP has made improvements to the SENTRI Program, communication
       challenges remain across and between ECs, the VC, the Ombudsman, and
       headquarters. CBP needs to develop EC officer training, ensure SENTRI members

www.oig.dhs.gov                            34                                  OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       keep information updated, allow for linking family membership applications,
       enhance payment collection and record keeping procedures, and consider
       eliminating vehicle inspections during the enrollment interview process.

       Greater Transparency Would Enhance Communication Between the Vetting
       Center, Enrollment Center Officers, and Headquarters

       To facilitate separation of duties and effect uniform and consistent TTP vetting,
       adjudication, and enrollment, CBP limits communication between the VC and
       ECs. Limited interaction, however, creates a need for greater transparency into
       operational duties. For example, EC officers were unaware of why the VC was
       forwarding applicants to ECs that should have been
                EC officers said they were processing applications unnecessarily as the
       VC was not vetting applicants appropriately.




       VC and EC interaction is typically confined to GES comments added by VC officers
       during application vetting and addressed by EC officers during the adjudication
       and enrollment process, although it is unclear what monitoring procedures exist
       to ensure all comments are addressed. Enhancing officer knowledge and
       increasing transparency between VC and EC operations would facilitate an
       understanding of respective roles and responsibilities.

       VC and EC officers do not interact with headquarters SENTRI Program staff.
       Supervisors and chiefs are more likely to contact headquarters program staff;
       however, this communication is limited and conducted on an as-needed basis.
       Although headquarters SENTRI Program staff said they hold monthly conference
       calls with ECs, EC leadership explained these calls no longer take place. In
       addition, headquarters SENTRI program staff has not traveled to SENTRI POEs in
       more than 4 years. As a result, SENTRI Program staff’s ability to develop and
       enforce policies and procedures effectively is limited without an ongoing and
       recurrent dialogue with EC leadership.

       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:




www.oig.dhs.gov                            35                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendation #7:

       Establish and standardize information exchanges between the Vetting Center,
       Enrollment Centers, and headquarters Trusted Traveler Programs staff to
       enhance information sharing, coordinate policies and procedures, and increase
       transparency of respective roles and responsibilities.

       Management Comments and OIG Analysis

       Management Response to Recommendation #7: CBP officials concurred with
       Recommendation 7. In its response, CBP said OFO will establish a common
       electronic location to provide TTP information that can be shared by the VC,
       headquarters program managers, field managers, and EC officers. The
       information would include program descriptions, the TTP Handbook, standard
       operating procedures, current memoranda and musters, training guides, system
       release updates, etc.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 7, which is resolved and open. This recommendation will
       remain open pending our receipt of documentation that a TTP information
       exchange has been established for sharing information between the VC, ECs,
       headquarters program staff, and field managers.


       Uniform Enrollment Center Training Is Necessary To Ensure Processes Are
       Followed Consistently

       The VC has a formal training program for new officers, which includes TTP
       overviews, application and enrollment processes, the VCM, and vetting
       standards and queries. It also presents best practices on how to vet an
       application and guides VC officers step by step through the process. When the
       VC receives a temporary duty officer, the officer receives the same formal
       training, and is paired with an experienced officer. The VC training program was
       developed to ensure consistent vetting among officers permanently,
       temporarily, and remotely assigned to vet TTP applications.

       While the VC has an established training program, ECs have no formal training
       program and rely on current officers to provide on-the-job training. Of the EC
       officers and supervisors interviewed, 50 percent said there is no formal training
       and new EC officers shadow current officers for 1 week to observe and learn the
       process. However, there is no uniform training to ensure EC officers are

www.oig.dhs.gov                           36                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       processing applications properly because much of the enrollment determination
       is subjective, based on an officer’s queries performed, and interpretation of
       information. For example, officer backgrounds, such as previous work as a
       customs officer at an airport or cargo facility can influence how EC officers
       evaluate applications.

       As assignments are based on seniority, officers may rely on prior experiences,
       which may not relate to issues unique to southern United States land border
       POEs. Because new EC officers depend upon current officers as their primary
       training source, inconsistent processes and practices may be communicated and
       replicated. Although EC officers have the Consolidated Trusted Traveler
       Programs Handbook and Strict Standard Policy, informal training hinders the
       ability of CBP to ensure that all ECs and EC officers make determinations
       consistently. One example of potential inconsistencies



       Experienced EC officers may also be reassigned from an EC because an officer
       with more seniority was able to bid and rotate to an EC assignment. EC
       leadership stated that CBP’s bid and rotation policy may increase turnover
       because officers assigned to an EC one year may opt to bid and rotate to another
       work unit the following year. The high EC turnover does not provide officers an
       opportunity to become experts in enrollment processing and limits transferring
       institutional knowledge from experienced EC officers to new EC officers.

       Adequate training is necessary to ensure that enrollment decisions are accurate
       and based on established guidance, policies, and procedures because officer
       approvals are not reviewed, while denials must be reviewed by an EC supervisor.
       An officer’s decision regarding approval is final; only 60 percent of ECs visited
       conduct any second level or peer review of approvals. At ECs, officers’ work is
       not monitored regularly. Therefore, we are concerned that more attention is
       placed on denials rather than approvals. In addition, on multiple occasions we
       witnessed EC officers performing each step of the SENTRI enrollment process
       from biometric collection, document review, interviews, fee collection, to vehicle
       inspections. Although not all ECs have staffing levels to enforce separation of
       duties, including peer reviews, uniform training for all EC officers can help ensure
       each step of the enrollment process is conducted accurately and consistently.

       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:

www.oig.dhs.gov                            37                                    OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Recommendation #8:

       Develop and implement a uniform training program for Enrollment Center staff
       that includes Trusted Traveler Programs overviews, policies, interviewing
       techniques, data system queries, and evaluating results.

       Management Comments and OIG Analysis

       Management Response to Recommendation #8: CBP officials concurred with
       Recommendation 8. In its response, CBP said that developing a comprehensive
       training program will be a long term project. Training will include multiple
       modules to provide a broad foundation for new CBP officers and established
       officers. Training can be scaled based on type of port, CBP officer involvement in
       various TTPs, and whether the training is an introduction, refresher, or for a
       current CBP officer assigned to an EC.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 8, which is resolved and open. This recommendation will
       remain open pending our receipt of documentation that a uniform TTP training
       program has been implemented at the ECs.


       Enrollment Centers Need To Ensure that Details of the Vetting, Inspection, and
       Renewal Process Are Annotated in Global Enrollment System Comments

       As SENTRI has not retained paper files since 2007, CBP leadership requires
       documents to be stored in GES with annotated comments. Providing comments
       in GES assists with SENTRI Program vetting, inspection, and renewal processes as
       these processes are conducted by geographically dispersed CBP personnel.
       However, several CBP officers interviewed said that not all ECs are adding
       comprehensive comments.

       During VC denial reviews, VC supervisors look at VC officer comments and
       supporting information. When a VC officer’s comments are insufficient, there is a
       return to officer option within the VCM, and VC supervisors can comment that
       the officer has not substantiated his or her recommendation. This provides VC
       supervisors with an officer training tool.

       When VC officers are unsure about an application, they can send it to a VC
       supervisor or to an EC with comments. VC officers enter comments in the RAW
       for EC officers to review and address during an applicant’s interview. EC officers

www.oig.dhs.gov                            38                                    OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       should provide responses to the comments in GES, which acts as a check to
       ensure that EC officers do not miss steps in the process. For example, VC officers
       may enter comments in GES regarding a

                EC officers should request and verify court documents from applicants.
       This information should be annotated in GES comments to ensure the offense
       falls within CBP’s established discretion threshold.

       When an EC determines that an applicant should be denied SENTRI Program
       membership, the EC officer should add the reason for denial into GES comments.
       The EC supervisor can then make the final denial determination based on
       applicant-provided information and EC officer comments from the in-person
       interview. One EC supervisor said GES comments within applicant records need
       to be comprehensive because the SENTRI determination process is long and
       requires considerable research efforts. Comprehensive comments also allow VC
       officers, other ECs, and the Ombudsman to review the denial reason should an
       applicant reapply for the SENTRI Program or request redetermination. Useful
       comments are also an important part of the Ombudsman review process. When
       looking at a redetermination request, the Ombudsman reviews the applicant’s
       RAW and analyzes all comments from the VC and the ECs. The Ombudsman will
       also add comments in GES regarding the decision to deny or approve an
       applicant. These comments are useful for VC and EC officers reviewing previously
       denied applicants and renewals to identify why the Ombudsman made the
       determination to deny or approve membership.

       Officer comments in GES are also valuable in the primary lane inspection
       process. Officers conducting enforcement vetting add comments to GES with
       their research on whether a SENTRI member was a match or not to a derogatory
       information record,                                                      This
       information appears on the primary inspection lane screens and instructs CBP
       officers what to do when query results identify the SENTRI member as having
       potential derogatory information.

       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:




www.oig.dhs.gov                            39                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendation #9:

       Establish and disseminate a policy to ensure that officers enter comprehensive
       comments into the Global Enrollment System throughout all SENTRI processing
       stages.

       Management Comments and OIG Analysis

       Management Response to Recommendation #9: CBP officials concurred with
       Recommendation 9. In its response, CBP said OFO will issue a memorandum to
       remind CBP officers to enter comprehensive comments into GES for TTPs.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 9, which is resolved and open. This recommendation will
       remain open pending our receipt of the memorandum issued to remind CBP
       officers to enter comprehensive comments into GES.


       SENTRI Members Should Notify CBP Timely of Subsequent Changes Since Last
       Application

       According to the SENTRI enrollee contract signed upon program approval,
       members must keep citizenship and admissibility documents used to enroll in
       the program current and must keep information, such as immigration status,
       vehicle plates, address, and employment, up to date. Failure to comply with
       these requirements can result in immediate revocation of SENTRI lane privileges.

       Members may forget to update information in GOES, or as one CBP officer said,
       members are less likely to change something in the system because GOES is
       difficult to navigate. In addition, only certain information may be changed in a
       member’s GOES account; all other information changes require the member to
       come into an EC. For example, members can only update expired documents and
       addresses in GOES. When members get married and change names or change
       immigration status, they have to come into an EC and provide the appropriate
       documentation. While this increases EC workload, documents provided by
       members must be verified to establish authenticity.

       In addition, members may have difficulty traveling to an EC to update
       information, and may also experience difficulties in obtaining an appointment
       because of backlog. Three of the ECs we visited said that applicants and
       members often make appointments based on an EC’s schedule rather than its

www.oig.dhs.gov                           40                                  OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       proximity. Due to the volume of SENTRI applications, appointment availability at
       ECs may be limited. For example, as of June 30, 2013, the appointment schedule
       at the largest EC was 83 percent full for the next 90 days. However, leadership at
       this POE noted this is an improvement as EC appointment backlogs were
       previously up to 3 to 4 months. Members may go to an EC without an
       appointment, but walk-ins must wait for the next available EC officer, which may
       be time-consuming given the number of appointments previously scheduled.

       Although member updates are required by the enrollee contract and the
       Consolidated Trusted Traveler Programs Handbook, some CBP officers said that
       they would use discretion as to whether members should have their privileges
       revoked. For example, one officer said that he would be more likely to forgive
       older persons without Internet access and just remind them that it is their
       responsibility to keep all information up to date.

       Because members do not always update their GOES account, CBP may not be
       aware that a change occurred until a member goes through the renewal process,
       which occurs every 5 years. As of July 2011, CBP processes automatic renewals
       for members whose information has not changed in the past 5 years. The VC can
       adjudicate these renewals without EC involvement. However, there is a risk that
       members will not update information and be potentially renewed automatically.

       Furthermore, the inability of CBP to validate membership data accuracy
       decreases the effectiveness of enforcement vetting, which relies on exact
       matches to biographic information, such as names. Outdated member
       information also hinders the ability of CBP headquarters and field intelligence
       units to conduct



       After our fieldwork, CBP officials clarified that the renewal process, although it
       may appear automatic to the member, is the same process as the initial
       application. All data is collected and certified as correct by the applicant at the
       time of submission. Applicants are required to provide any updates at this time.
       When the application meets specified systems defined parameters, the
       reviewing officer may approve an applicant for renewal without the applicant
       visiting an EC.




www.oig.dhs.gov                             41                                    OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:

       Recommendation #10:

       Prior to adjudicating automatic renewals, randomly sample members to identify
       whether pertinent information has changed; then determine whether
       withholding such information would have precluded membership renewal.

       Management Comments and OIG Analysis

       Management Response to Recommendation #10: CBP officials concurred with
       Recommendation 10. In its response, CBP said that all renewal applications go
       through the same vetting processes as an initial application and are reviewed by
       a CBP officer at the VC. Every renewal application is still reviewed by the VC
       officer before a recommended action occurs.

       OIG Analysis: After our fieldwork, CBP officials provided additional information
       that VC officers review every renewal application prior to processing an
       automatic renewal. Therefore, we consider CBP’s actions responsive to the
       intent of Recommendation 10, which is resolved and closed. No further
       reporting from CBP regarding this recommendation is necessary.


       Global Enrollment System Enhancements Are Needed To Establish Links
       Between Family Member Records

       Because applicants may be denied, or SENTRI membership revoked based on a
                                                             it is important for CBP to 

       establish family links and familial relationships. However, GES is not currently
       configured to generate a family profile and does not allow VC or EC officers to
       link family members in the system. Each family member has an individual GES
       record, and as a result, a VC or EC officer may process one record, while another
       officer may process another family member’s record independently. VC officers
       gave an example of reviewing a minor’s SENTRI application but not the legal
       guardian’s application.

       To address this issue, CBP officers have adopted a practice of entering
       relationships and corresponding instructions into GES comments. For the
       previous example, a VC officer would add in GES comments, “Please ensure legal

www.oig.dhs.gov                            42                                   OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       guardian is approved first.” The officer may also enter a linked individual’s PASS
       ID numbers and                                            In addition, officers may
       use these links as a tool to identify issues by checking whether an applicant has
       family members in the program and their history in the program.

       At one EC we visited, contract staff triaging applications manually annotated the
       relationship information for each record and grouped family member records
       together for the officers. The officers then added the linking information into
       GES comments for each applicant. Entering links between family members
       manually is time consuming and potentially susceptible to human error.

       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:

       Recommendation #11:

       Modify the Global Enrollment System to allow CBP officers to establish links
       between family member records under a common profile.

       Management Comments and OIG Analysis

       Management Response to Recommendation #11: CBP officials concurred with
       Recommendation 11. In its response, CBP said that OFO will coordinate with the
       Office of Information Technology to determine the level of effort required to
       modify GES to allow CBP officers to establish links between family member
       records, under a common profile.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 11, which is resolved and open. This recommendation will
       remain open pending our receipt of documentation that GES has been modified
       to establish links between family member records, under a common profile.


       Internal Controls Over SENTRI Fee Payment and Collection Need Improvement

       The Consolidated Trusted Traveler Programs Handbook includes SENTRI program
       fees, which can be paid by cash, check, or credit card. The majority of SENTRI
       application fees are collected online when an application is submitted through
       GOES, but ECs collect the remaining program fees for vehicles, fingerprints, DCL,
       etc. However, there are no procedures for linking SENTRI applicant and member

www.oig.dhs.gov                             43                                    OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        fees paid with fees collected at ECs, or for recording the transactions in GES. The
        process for collecting SENTRI enrollment and renewal fees also varies at ECs. In
        addition, Federal Bureau of Investigations fingerprint fees are not always
        collected as required.

        An EC officer said an application can be reconciled with fees collected, but it is
        difficult because applicants also pay a portion of the fees online through GOES.
        In addition, GES is not currently configured to link payments to applicants, and
        cash register receipts are not identifiable by applicant. Some officers opt to make
        comments in GES regarding fees collected at ECs or scan receipts into GES.
        Recording payment in GES would assist CBP in ensuring that a fee has been paid
        and collected appropriately for all SENTRI applicants and members.

        When collecting fees, EC personnel use electronic cash registers to enter codes
        for each fee: fingerprint, vehicle, DCL, replacement decal, replacement card, and
        miscellaneous. All five ECs we visited use different processes for collecting
        SENTRI fees. At three ECs, a contractor serves as a cashier and is responsible for
        collecting TTP applicant payments. Each cashier has an individual cashier code
        that is printed on the receipt for all transactions they process. Cashiers reconcile
        the register daily at the beginning and end of each shift. These three ECs
        maintain a transaction logbook for cash payments, as well as a computerized
        spreadsheet for fees collected.

        At one of these three ECs, the cashier takes processing forms and decals for
        approved applicants from EC officers and payment from approved applicants.
        After the applicant pays, the cashier inserts the corner of the processing form
        into the register for a stamp, which annotates the register, cashier’s code, total
        paid, and time and date. The cashier then signs the processing form and places it
        with the decal on a clipboard for an EC officer to collect and conduct the
        vehicle inspection.

        At the two ECs without contract cashiers, all EC officers use the same cashier
        login code, which is an ineffective internal control. As a result, when a
        discrepancy occurs there is no way to determine which EC officer processed the
        payment. One of these ECs has had three instances of missing SENTRI funds.

        At the second EC without a contract cashier, a light duty officer is designated as
        the cashier.22 A manager at this EC said when there is no light duty officer

22
  Light duty officers include those who cannot physically perform their regular duties because of
temporary medical situations.

www.oig.dhs.gov                                    44                                          OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       present in the EC, one officer is designated as the cashier. When this occurs
       there is a potential for the same officer to interview an applicant, inspect a
       vehicle, and collect applicant fees, and also to collect fees for other EC officers.
       The manager said he signs off on the cash register daily to ensure it is correct.
       One EC officer said that when collecting money he prints the applicant’s picture
       to be saved with the corresponding receipt. However, another EC officer writes
       the fee paid in GES comments but does not scan receipts into GES.

       TTP program management officials at CBP headquarters said they do not have a
       role in reconciling cash payments received at POEs. POEs work with CBP’s
       Revenue Division in Indianapolis, ID to reconcile POE cash registers. The SENTRI
       and NEXUS fees collected are transmitted electronically into a special account
       that is used to fund CBP land border activities, while the Global Entry fees are
       transmitted electronically to CBP’s Global Entry Program.

       The Federal Bureau of Investigation invoices the TTP program office for
       fingerprint service fees. According to the Consolidated Trusted Traveler Programs
       Handbook, EC officers should attempt to obtain readable applicant fingerprints
       up to three times before submitting fingerprints to the Federal Bureau of
       Investigation for results. TTP program officials and EC supervisors said some EC
       officers may request fingerprint results multiple times in error, thus charging CBP
       more service fees than fees collected from applicants. 


                                  As a result, TTP management cannot verify that the 

       service fee invoice amount correctly reflects the number of applicants
       fingerprinted at ECs.

       Recommendations

       We recommend that the CBP Assistant Commissioner, Office of Field Operations: 


       Recommendation #12: 


       Establish and implement a policy for recording Trusted Traveler Program fees to

       ensure that the appropriate fees are collected and linked to applicant files in the
       Global Enrollment System.

       Recommendation #13: 


       Establish and implement a policy to ensure that each officer processing

       payments at Enrollment Centers has an individual cashier login.


www.oig.dhs.gov                             45                                     OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Management Comments and OIG Analysis

       Management Response to Recommendation #12: CBP officials concurred with
       Recommendation 12. In its response, CBP said that modifications to both GES
       and EC cash register programming may be required to link fees collected at ECs.
       CBP acknowledged that the changes may prove to be a long term project.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 12, which is resolved and open. This recommendation will
       remain open pending our receipt of documentation that appropriate fees are
       collected and linked to applicant files in GES.

       Management Response to Recommendation #13: CBP officials concurred with
       Recommendation 13. In its response, CBP said that OFO will issue a
       memorandum to the field requiring unique cashier logins for anyone processing
       fees in an EC.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 13, which is resolved and open. This recommendation will
       remain open pending our receipt of the memorandum requiring unique cashier
       logins for anyone processing fees at an EC, and verification that the policy has
       been implemented.


       CBP Should Continue Efforts To Eliminate Enrollment Center Vehicle
       Inspections

       In February 2013, OFO’s Admissibility and Passenger Programs proposed to
       eliminate the          vehicle inspection at the time of SENTRI enrollment, and
       replace it with a random referral during one of the first three member border
       crossings into the United States. SENTRI applicants would still be required to
       register their vehicle and include vehicle information on their applications.

       Approximately percent of EC officers and supervisors interviewed said they
       have never identified any anomalies during the         inspection, and it is a
       waste of time. Eliminating the        vehicle inspection at ECs would provide
       officers more time to conduct interviews, which may ease application processing
       backlogs at some ECs.

       SENTRI Program officials said they have started discussions on whether changing
       the        inspection policy would add to SENTRI lane processing times. Before

www.oig.dhs.gov                            46                                  OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       making changes, CBP officials said they must ensure         inspection referrals
       can be integrated with other secondary referral inspections so that SENTRI
       members are not referred to secondary inspection at every border crossing.

       There are instances when ATS targeting rules are aimed at SENTRI members for
       referral to secondary inspection. As a result, CBP must review the existing rules
       in ATS that are designed to signal to CBP officers that further inspection may be
       warranted.


                The rules are tested prior to use to study how they will affect
       operations and are adjusted constantly and evolve.

       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:

       Recommendation #14:

       Continue to pursue eliminating the vehicle inspection during the initial SENTRI
       enrollment interview, and provide the DHS OIG with quarterly updates regarding
       actions taken until a decision is made.

       Management Comments and OIG Analysis

       Management Response to Recommendation #14: CBP officials concurred with
       Recommendation 14. In its response, CBP said that eliminating the vehicle
       inspection during the initial SENTRI enrollment interview will be a long term
       project that will require review and logistical coordination at the POEs.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 14, which is resolved and open. This recommendation will
       remain open pending our receipt of CBP’s decision whether to continue vehicle
       inspections during the enrollment process.

       CBP Established a Redetermination Process, But Challenges Remain

       CBP has established redetermination procedures for travelers who believe they
       were denied membership or were wrongfully terminated from the SENTRI
       Program because of inaccurate information. According to the Consolidated
       Trusted Traveler Programs Handbook, an applicant or member may contact an

www.oig.dhs.gov                            47                                     OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       EC to schedule an appointment with a supervisor, or contact the CBP
       Ombudsman directly. However, the CBP redetermination process is manual,
       clerically driven, inadequately staffed, and offers limited transparency.

       Supervisory Interviews May Provide Beneficial Information, But Are Not
       Always Conducted By Enrollment Centers

       During our fieldwork, 60 percent of ECs visited offered supervisory interviews. EC
       supervisors may hold discussions with applicants who have concerns with their
       enrollment process, but these supervisors only schedule interviews with
       applicants who are close to meeting the low-risk traveler criteria. When an
       interview proves that inaccurate information was used to make a determination,
       EC supervisors enter comments into GES and forward the information to the EC
       chief. The EC chief then forwards the information to the Ombudsman for review
       on behalf of the applicant.

       During our fieldwork, we observed an EC supervisory interview with a family
       seeking redetermination. Prior to the interview, the supervisor analyzed the
       interviewees’ RAWs, conducted additional data system queries on the
       individuals, and evaluated any questionable information indentified in the RAWs.
       The supervisor used the information to guide questioning during the interview.
       Once the interview was complete, the supervisor generated a case write-up
       consisting of a recommendation for a possible “unset,” or reversal, of a SENTRI
       denial and sent it to the EC chief for review. The supervisor explained that when
       the EC chief agrees with the recommendation, he or she will send the
       information to the Ombudsman. Even though an EC can suggest an unset, the
       final determination is made by the Ombudsman.

       The Ombudsman will review notes provided by EC supervisors and chiefs in GES.
       When no notes exist, the Ombudsman will use the same information the VC
       generated that led to an initial denial. Denied applicants or revoked members
       who do not meet with an EC supervisor may email message or write a letter to
       the Ombudsman directly with supporting information that can demonstrate the
       denial or revocation was based on incorrect or inaccurate data.

       While the Consolidated Trusted Traveler Programs Handbook encourages denied
       applicants or revoked members to contact ECs for a supervisory interview, we
       determined that not all ECs offer that service. Although not all ECs offer
       supervisory interviews, ECs provide additional information through in-depth data
       system queries, which could prove beneficial for the Ombudsman during the


www.oig.dhs.gov                            48                                  OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       redetermination review process. CBP should evaluate EC ability to conduct these
       interviews to assist in the redetermination process.

       CBP’s Redetermination Process Needs Automation, Additional Staff, and
       Increased Transparency

       Although the CBP Ombudsman position was created in 2007, it was vacant until
       2008. During this time, a substantial redetermination request backlog developed
       as no requests had been reviewed or addressed. Also, when the Ombudsman
       was hired, a process for making redetermination decisions did not exist.

       As of July 2013, the redetermination process involves the Ombudsman re-vetting
       an applicant. The Ombudsman receives approximately 300 requests per week
       through the U.S. mail. The majority of requests are from applicants, then
       requests from ECs, headquarters, and Congress, followed by applicant requests
       sent via email message and fax. Congressional and headquarters requests take
       precedence over all other requests. Within the last 6 months, the Ombudsman
       received approximately 7,000 pieces of U.S. mail. The Ombudsman is responsible
       for reviewing all redetermination requests for all CBP TTPs, and handles the work
       load with a part-time technician who triages incoming requests.

       When a request is received, the technician triages it by logging all U.S. mail and
       email messages into an Excel™ spreadsheet by the applicant’s PASS ID. Once an
       inquiry is triaged, the Ombudsman logs into GES, reviews the applicant’s RAW,
       and analyzes all comments and notes from the VC and ECs. The Ombudsman re­
       runs queries for updates and may reach out to ECs for more information when
       necessary. Based on a review of the data, the Ombudsman will determine
       whether the applicant was denied or revoked because of inaccurate information.

       Once it is determined that an applicant was wrongfully denied or revoked, the
       Ombudsman will proceed with unsetting, or reversing, the applicant’s denial.
       The Ombudsman sends a list of names to be unset to CBP’s Office of Information
       Technology, because the Ombudsman does not have systems permission to
       unset applicants within GES. Applicants who are unset receive a “status change”
       notification in their GOES account and a letter from the Ombudsman detailing
       the decision.

       The Ombudsman may also use discretionary authority to determine an applicant
       to be low-risk, even though the individual does not meet program eligibility
       standards. These names are sent weekly to the         DFO for review and


www.oig.dhs.gov                            49                                  OIG-14-32
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       approval. Table 4 shows the Ombudsman has processed 24,447 TTP requests for
       redetermination since FY 2008.

       Table 4: Ombudsman Trusted Traveler Program Reconsiderations
          Fiscal      Total Requests          Determinations      Requests Denied
          Year          Reviewed                 Reversed
        2008              3,406                    1,674               1,732
        2009              2,596                    1,406               1,190
        2010              3,305                    1,419               1,886
        2011              4,583                    2,034               2,549
        2012              6,430                    2,498               3,932
        2013              4,127                    2,067               2,060
        TOTALS           24,447                   11,098              13,349
       Source: CBP data as of June 4, 2013.

       The Ombudsman maintains three Excel™ spreadsheets for tracking reviewed
       requests that require processing by another individual or group. One
       spreadsheet contains a list of unsets to be sent to the Office of Information
       Technology as previously mentioned, another includes reconsiderations
       requiring DFO discretionary authority concurrence, and one contains a list of
       denials sent to the CBP technician for mailing. Once a week, the Ombudsman
       uses the denial spreadsheet to create form letters for those applicants whose
       requests have been denied. The technician then prints the letters, then mails the
       letters to requestors.

       The redetermination process is manual and much of the Ombudsman’s work is
       clerical, which reduces available redetermination time. As TTP membership
       grows, so will the number of redetermination requests. The current process will
       not sustain the influx of new requests, which will result in an increased backlog
       and delayed response times. Automating the redetermination process through
       technology solutions would assist the Ombudsman to sustain TTP growth and
       provide for more effective and efficient processing.

       There is also limited insight into how CBP’s redetermination process operates,
       which is not prudent. The Ombudsman is solely responsible for handling
       requests. As a result, when the Ombudsman is on leave no requests are
       processed, which results in an increased backlog. As of July 2013, the
       redetermination requests backlog was approximately 4,700 for all TTPs. Having
       individuals in place to continue redetermination operations would mitigate the
       potential for additional backlog. Furthermore, the Ombudsman should have
       adequate staffing to assist in handling daily redetermination requests.

www.oig.dhs.gov                               50                                OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendations

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:

       Recommendation #15:

       Provide adequate staffing for the redetermination process to ensure continuity
       and efficiency of operations.

       Recommendation #16:

       Automate the CBP redetermination process to enhance the efficiency and
       effectiveness of operations.

       Management Comments and OIG Analysis

       Management Response to Recommendation #15: CBP officials concurred with
       Recommendation 15. In its response, CBP said that OFO will review and evaluate
       the current workflow to determine the number of staff necessary to augment
       operations. Assessing staffing levels will be conducted by March 2014.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 15, which is resolved and open. This recommendation will
       remain open pending our receipt of the staffing assessment results, including the
       appropriate staffing levels to augment current operations, and verification that
       additional staff has been hired for the redetermination process.

       Management Response to Recommendation #16: CBP officials concurred with
       Recommendation 16. In its response, CBP said the creation of a new subsystem
       for the Ombudsman process will require extensive coordination with the Office
       of Information Technology. CBP plans on holding an initial assessment meeting,
       within 120 days, to determine the scope and timeline for automating the
       redetermination process.

       OIG Analysis: We consider CBP’s actions responsive to the intent of
       Recommendation 16, which is resolved and open. This recommendation will
       remain open pending our receipt of documentation that the Ombudsman’s
       redetermination process has been automated.




www.oig.dhs.gov                           51                                  OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Opportunities Exist to Reduce Duplication and Improve Transparency in DHS’
       Redetermination Process

       DHS’ Traveler Redress Inquiry Program (TRIP) is a single point of contact for
       individuals who have inquiries or seek resolution regarding difficulties they
       experienced during their travel screening at transportation hubs. Through DHS
       TRIP, people who have been denied or delayed airline boarding; have been
       denied or delayed entry into or exit from the United States at a POE or border
       crossing; or have been repeatedly referred to secondary screening can file an
       inquiry to seek redress. Persons seeking redress can apply online to have their
       inquiry processed through DHS TRIP’s Redress Management System. DHS TRIP
       then forwards the inquiries received to the appropriate screening department or
       agency. CBP representatives to DHS TRIP do not work with the CBP Ombudsman,
       but have access to the Redress Management System and GES data to conduct
       research and gather applicant information. As a result, an opportunity exists to
       reduce duplication and improve transparency in the DHS redetermination
       process.

       While the CBP Ombudsman’s redetermination process is not currently included
       within DHS TRIP, DHS TRIP receives CBP TTP redetermination inquires. DHS TRIP
       sends the redetermination inquires to a CBP point of contact for further
       processing. This point of contact then sends the information to TTP program
       managers at CBP headquarters. TTP program managers then forward the
       inquiries to the Ombudsman for final determination, but program managers do
       not maintain records to ensure that the inquiry was forwarded to the CBP
       Ombudsman. CBP is also responsible for closing DHS TRIP cases and sending
       resolution letters to requestors. However, CBP does not send DHS TRIP a
       resolution to close out the initial inquiry.

       DHS TRIP has transitioned to a more automated system since the program’s
       inception; however, paper inquiries are scanned into the Redress Management
       System. DHS TRIP officials said that prior to moving to a more electronic
       platform, inquiries were tracked using an Excel™ spreadsheet. DHS TRIP officials
       said that the Redress Management System is an improvement over the Excel™
       spreadsheet because of the transparency it provides to DHS components. In
       comparison, the CBP Ombudsman’s redetermination process does not include
       scanning paper requests into GES, which limits transparency, and there is no
       online capability for individuals to request redetermination. In addition, the
       Ombudsman also does not have access to the Redress Management System.
       Moving the CBP redetermination intake process to DHS TRIP would eliminate


www.oig.dhs.gov                           52                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       clerical aspects of the Ombudsman’s workload and provide additional time to
       review redetermination cases.

       Recommendation

       We recommend that the CBP Assistant Commissioner, Office of Field Operations:

       Recommendation #17:

       Discontinue direct applicant contact with the CBP Ombudsman, and direct
       requests to DHS TRIP to file and triage redetermination requests for intake
       purposes.

       Management Comments and OIG Analysis

       Management Response to Recommendation #17: CBP officials non-concurred
       with Recommendation 17. In its response, CBP said that forcing applicants to go
       through DHS TRIP would only add another step to the process, as all applications
       would be passed to the Ombudsman eventually. CBP said it can satisfy the intent
       of Recommendation 17 with additional staff and developing an automated
       process, which would be achieved by closing out Recommendations 15 and 16.

       OIG Analysis: CBP non-concurred with Recommendation 17, but through
       discussion with CBP officials the intent of this recommendation would be met by
       completing the actions in response to Recommendations 15 and 16. Therefore,
       we consider CBP’s actions responsive to the intent of the recommendation, and
       we are closing Recommendation 17. No further reporting from CBP regarding
       this recommendation is necessary.


Conclusion
       CBP has enhanced internal controls in SENTRI Program processes and established
       initiatives to address officer integrity issues. However, CBP needs to expand
       upon these initiatives and address additional challenges in the enrollment
       process. Although CBP established an Ombudsman position to review and
       address redetermination requests, the manual process needs to be modernized
       through technology solutions. Addressing these identified deficiencies will
       enhance the efficiency and effectiveness of the SENTRI Program.



www.oig.dhs.gov                           53                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

CBP’s SENTRI is a border management program that allows CBP to accelerate the
inspection of pre-enrolled, low-risk travelers at designated southern United States land
POEs. Participants undergo background checks and use DCLs that allow CBP to maintain
border integrity, security, and law enforcement responsibilities. SENTRI became
operational in 1995; however, in recent years smugglers and drug traffickers have
targeted the SENTRI Program as a conduit for illegal cross-border activities.

Our objectives were to determine: (1) the adequacy of CBP’s internal controls to detect
and deter smugglers and drug traffickers from using SENTRI participants to transport
illegal persons, contraband, or drugs; (2) to what extent has CBP established redress
procedures for participants who believe they were wrongfully terminated from the
SENTRI Program; and (3) to what extent CBP is using and sharing data collected from the
SENTRI, NEXUS, Global Entry, and FAST programs to identify illegal activities and trends
associated with these programs. We conducted this review as part of our Fiscal Year
2013 Annual Performance Plan.

We reviewed SENTRI Program enrollment and inspection processes, including examining
directives, policies, and procedures. We also reviewed memoranda of agreement and
understanding between CBP, DHS components, and other governmental partners
involved in determining the admissibility of TTP participants into the United States.

To assess the adequacy of internal controls within the SENTRI Program, we conducted
site visits at the following southern United States land POEs: Otay Mesa, CA; San Ysidro,
CA; Calexico, CA; Brownsville, TX; Hidalgo, TX; and Anzalduas, TX.

During site visits, we observed and evaluated SENTRI passenger and vehicle enrollment
and inspections. We also interviewed CBP officers at the POEs and U.S. Immigration and
Customs Enforcement agents involved in border security investigations. A site visit was
also conducted to                to review CBP’s initial vetting and redetermination
processes for TTPs.



www.oig.dhs.gov                            54                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


We interviewed CBP officials responsible for managing and implementing the SENTRI
Program, and DHS officials who send or receive data through the SENTRI Program to
identify illegal activity and perform trend analysis. In addition, we interviewed DHS
officials involved in the redetermination process for those participants who believe they
were wrongfully denied enrollment in or terminated from the SENTRI Program. We
studied work previously performed by our office and held discussions with the
Government Accountability Office.

Our fieldwork began in April 2013 and concluded in July 2013. We conducted this review
under the authority of the Inspector General Act of 1978, as amended, and according to
the Quality Standards for Inspections issued by the Council of the Inspectors General on
Integrity and Efficiency.




www.oig.dhs.gov                            55                                   OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix B
Recommendations
We recommend that the CBP Assistant Commissioner, Office of Field Operations: 


Recommendation #1: 


Disseminate a memorandum to all Enrollment Center leadership that reiterates the

referral process for CBP family members, close acquaintances, and CBP personnel
applying for SENTRI membership.

Recommendation #2: 


Establish the process of providing minimal advance notification of lane assignments to

CBP officers. Additionally, ensure that lane assignments are random so as to not follow a 

pattern.


Recommendation #3:

Explore the feasibility and value of limiting CBP Officer hometown region assignments to

further mitigate the risk of officer or agent misconduct and corruption.


We recommend that the CBP Assistant Commissioner, Office of Internal Affairs:


Recommendation #4: 


Expand covert testing to all CBP Trusted Traveler Programs.


We recommend that the Commissioner, U.S. Customs and Border Protection: 


Recommendation #5: 


Develop and implement a plan with CBP’s union to establish a program to conduct 

random polygraph screening of all CBP officers.





www.oig.dhs.gov                            56                                   OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


We recommend that the CBP Assistant Commissioner, Office of Field Operations: 


Recommendation #6: 


Establish and implement a policy to ensure that CBP officers with disciplinary action

relating to a Trusted Traveler Program are not involved in adjudicating membership 

applications or renewals.


Recommendation #7: 


Establish and standardize information exchanges between the Vetting Center,

Enrollment Centers, and headquarters Trusted Traveler Programs staff to enhance 

information sharing, coordinate policies and procedures, and increase transparency of

respective roles and responsibilities.


Recommendation #8: 


Develop and implement a uniform training program for Enrollment Center staff that 

includes Trusted Traveler Programs overviews, policies, interviewing techniques, data

system queries, and evaluating results.


Recommendation #9: 


Establish and disseminate a policy to ensure that officers enter comprehensive 

comments into the Global Enrollment System throughout all SENTRI processing stages.


Recommendation #10: 


Prior to adjudicating automatic renewals, randomly sample members to identify 

whether pertinent information has changed; then determine whether withholding such
information would have precluded membership renewal.

Recommendation #11: 


Modify the Global Enrollment System to allow CBP officers to establish links between

family member records under a common profile.





www.oig.dhs.gov                            57                                   OIG-14-32
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Recommendation #12: 


Establish and implement a policy for recording Trusted Traveler Program fees to ensure

that the appropriate fees are collected and linked to applicant files in the Global 

Enrollment System.


Recommendation #13: 


Establish and implement a policy to ensure that each officer processing payments at

Enrollment Centers has an individual cashier login.


Recommendation #14: 


Continue to pursue eliminating the vehicle inspection during the initial SENTRI 

enrollment interview, and provide the DHS OIG with quarterly updates regarding actions
taken until a decision is made.

Recommendation #15: 


Provide adequate staffing for the redetermination process to ensure continuity and 

efficiency of operations.


Recommendation #16:

Automate the CBP redetermination process to enhance the efficiency and effectiveness

of operations. 


Recommendation #17: 


Discontinue direct applicant contact with the CBP Ombudsman, and direct requests to

DHS TRIP to file and triage redetermination requests for intake purposes.





www.oig.dhs.gov                           58                                  OIG-14-32
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Appendix C
Management Comments to the Draft Report
                                                                                  U.S. Department of Homeland Security
                                                                                  Washington, DC 20229

                                                                                  U.S. Customs and
                                                                                  Bo rder Protection
          JJecember II , 2013




          MEMORANDUM FOR:               Charles. K . Edwards
                                        Deputy Inspector General
                                        n epan:ment ofHomeland Security

          FROM:                         Assistant Commissioner, Office of ln~~~ :r~ ~
                                        U.S. Customs and Border Protection ~- ~
                                                                                                               _
          SU HJECT:                     Response to the Office of Inspector General's Draft Report
                                        "Ensuring the Integrity ofCBP's Secure Electronic Network for
                                        Travelers Rapid Inspection (SENTRJ)"



          U.S. Customs and Border Protection (CBP) appreciates the opportunity to rev iew and provide
          comments on your draft report entitled, "Ensuring th e Integrity ofCBP's Secure E lectronic
          Network for Travelers Rapid Inspection (SEKTRI)" (OIG-13-070-lSP-CBP).

          We would like to highlight the Office of Inspector General's (OIG) acknowledgement of CBP' s
          significant improvements in the implementation of the SENTRI program since 2004.
          Specifically, CBP has enhanced internal controls processes and established initiati ves to address
          officer integrity issues.

          Based on the OIG's inspection of CBP' s SENTRI program, 17 recommendations were issued to
          CBP. CBP concurs with 16 reconunendations and non-concurs with one. Please see below for
          specilic OTG recommendations, as well as, CBP's response and corrective action plans to fully
          implement your assigned recommendations.

          Specifically, OIG recommended that:

          Recommendation #1: Disseminate a memorandum to all Enrollment Center leadership that
          reiterates the referral process lor CBP tiunily members, close acquaintances, and CBP personnel
          applying fo r SENTRI membership.

          C BP Response: Concur. CllP' s Office of f-ield Operations (OfoO)!rrusted Traveler Programs
          (TIP) Division will issue a memorandum reminding CBP officers (CBPOs) that the enrollm ent




www.oig.dhs.gov                                          59                                                    OIG-14-32
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




         interview is the equivalent of a primary inspection by regulation, and as such, the same standards
         (CBP Standards of Conduct) apply to enrollment interviews as apply to primary and secondary
         inspections.

         Estimated Completion Date: February 2014

         Recommendation #2: Establish the process of providing minimal advance notification of lane
         assignments to CBP officers. Additionally, ensure that lane assignments are random so as to not
         follow a pattern.

         CBP Response: Concur. OFO provided guidance to the field offices in the fonn of a
         memorandum directing managers to minimize advance notification of lane assignments to
         CBPOs. This guidance stated that lane assignments should be random and not follow a pattern.
         CBP believes we have met the intent of the recommendation and fonnally request closure.

         Recommendation #3: Explore the feasibility and value of limiting CBP Officer hometown
         region assignments to further mitigate the risk of officer or agent misconduct and corruption.

         CBP Response: Concur. OFO/Mission Support Division will collaborate with the Office of
         Internal Affairs (IA) and other CBP stakeholders as necessary, to research the statistics on CBPO
         hiring and initial duty assignments. Upon completion of the research, OFO Mission Support will
         explore the operational impacts of limiting CBPO hometown region assignments and make
         recommendations via an issue paper to the Assistant Commissioner for OFO.

         Estimated Completion Date: Apri12014

         Recommendation #4: Expand covert tests ofCBP Trusted Traveler Programs.

         CBP R esponse: Concur. WOperational Field Testing Division (OFTD) has already conducted
         covert test in the Global Entry program and plans to expand testing in the other areas of the
         Trusted Traveler Program to include Secure Electronic Network for Traveler' s Rapid Inspection
         (SENTRI) and Northern Exchange with United States (NEXUS). Additionally, OFTD will
         explore the feasibility of conducting covert test in the Free and Secure Trade (FAST) program.

         Estimated Completion Date: December 2014

         Recommendation #5: Develop and implement a plan with CBP's union to establish a program
         to conduct random polygraph screening of all CBP officers.




www.oig.dhs.gov                                          60                                                   OIG-14-32
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




         C BP Response: Concur. C BP is developing a legislative p roposal requesting legis lative
         authority to administer periodic polygraph exams. focused o n corruption. to incumbent law
         enforcement officers. Simulumcously, CBJ> is relinin g polygraph policy in response to
         discussio ns with the unions.

         Estimated Completion Date: September 2014

         Recommcnd11tion #16: Establish and implement a policy to e nsure that CBP officers with
         disciplinary action relating to a Trusted Traveler Program are not involved in adjudicating
         membership applicatio ns or renewals.

         C BP Res ponse: Concur. OFOrrrP will draft fie ld guidance to the Directors of Field Operations
         and port manageme nt stating that C BPOs with disciplinary actions relating to TTP arc not
         eligible fo r rotations throug h the Enro ll ment Centers (ECs) by February I I , 20 14 . The d raft will
         need to be negotiated thro ugh National Treasury E mployees Union (NTEU) and, if agreed upon,
         enforced locally by port management during the bid a nd rotation process. OFO-TTP will
         coordinate with the C BP-Omce o f Human Resources Management-Labor Employee Relatio ns
         a nd other offices within OFO with equities in the process. Discussions with NTEU should be
         concluded prior to September 30, 20 14 (in advance o f the next Oid and Ro tation Cycle).Timeline
         for issuance of memo will be dependent on NTEU negotiations.

         Estimated C ompletion Date: September 20 14

         R ecommendation #7: Esta blish and standardize in[onnation exchanges between the Vetting
         Center, Enroll ment Centers, and headquarters T rusted Traveler Programs staff to e nhance
         information sharing, coordinate policies and procedures, and increase trans parency o f respective
         ro les and responsibilities.

         C BP Res ponse: Concur. OFO will establish a common location, such as an OFO "SharcPoint'"
         page for l T P that provides information for the Vening Center. Headquarte rs program managers,
         fie ld managers and EC officers as a resource. The s ite could incl ude progr-d.rtl descriptio ns,
         locations, the T rusted T ravele r Programs I Tandbook, o ther program SOPs, current memoranda
         and musters, training guides, syste m relea~e updates, etc. OFO plans to establish common
         resources by May 30, 20 14 . A memorandum wi ll be disseminated to the field within 30 days of
         establishing location for comm on resources no later than June 30, 20 14.

         Estimated C ompletion Date: June 2014

         Recommendation #18: Develop and implement u uniform training program for Enrollment
         Center s taff that inc ludes Trusted Traveler Programs overviews, policies, interview ing
         teclmiques, data system queries, and evaluating results.




www.oig.dhs.gov                                              61                                                      OIG-14-32
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




        CBI' Response: Concur. Development of a comprehensive training program will be a long teml
        pmject. Training w ill include multiple modules to provide a bmad foundation for new CBPOs
        and established officers alike. Training can be scaled based on type of port. involvement of the
        CBPO in various TIP, and whether the training is an intmduction, refresher, or for a c urrent
        C BPO assigned a TrP function in an EC.

        OFO-TIP w ill coord inate with OFO/Fic ld Programs D ivision (FPD) and the CBP Office of
        Training and Development (OTD) to determine equities as well as engage other CBP program
        o ffices, as necessary. Initial meetings w ith OFO/FPD and CBP/OTD to assess scope and
        approach to tmi ning development will be conducted in February 2014. Additional program
        milestones will be developed following initial meetings.

        Estimated Completion Date: September 20 14

        Recommendation #9: Establish and disseminate a policy to ensure that officers enter
        comprehensive comments into the G lobal Enro llment System throughout all SENTRI processing
        stages.

        C OP Response: Concur. OFO! ITP will issue a memorandum to remind CBPOs to enter
        comprehe nsive comments into GES for TTP programs.

        Estimated Completion Date: February 2014

        R ecommend a tion #10: J>rior to adjudicati ng automatic renewals. nmdomly sample members to
        identify whether pertinent information has changed: then determine whethe r withho lding such
        information would have precluded membership renewal.

        C OP Response: Concur. Currently, all renewal applications go through the same vetting
        processes (same as an initial application) and are reviewed by a CBPO at the Vetting Cente r. If
        the renewal application meets certain system requirements, the system allows the Vetting Center
        officer to " approve" the appl ication aller review. Every renewal application is still reviewed by
        the Vetting Center officer before a recommended action occurs.

        Since under the current process, all renewal applications arc renewed and information provided
        is compared to information previously provided by an applicant, any c hange of information is
        analysis and incorporated into the vcning process by a CBPO. A random sampling is not
        necessary for this in fonnation because this practice already occurs in the standard process for a
        Renewal Application. CBP believes we have met the intent of the recommendation and formall y
        request closure.




www.oig.dhs.gov                                            62                                                 OIG-14-32
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




         Recommenda tion # 11: Modify the G lobal Enrollment System to allow CBP officers to establish
         links between family member records under a common proftle.

         C RP Response: Concur. OFOrrrP wi ll coordinate with the CBP Office oflnJormation and
         Technology (OrT) to determine the level of effort (LOE) required for this systems change. An
         initial meeting to dcterm.ine LOE, time! inc for project and future milestones wi ll be cond ucted in
         March 2014. T his will be a long term project and may require additional coordination to w ith
         other CBP equities.

         Estima ted C ompletion Date: June 2014

         Recommenda tion #12: Establish a nd implement a policy for recording Trusted Traveler
         Program fees to ensure that the appropriate fees are collected and linked to applicant Iiles in the
         G lobal Emollment System.

         C BP R espon se: Concur. Modi!iemion to both GES and cas h register programing may be
         required in order to link fees collected at Enrollment Centers which will prove to be a long tcm1
         project.

         An initia l review of the process w ill occur within 90- 120 days to assess the required c hanges.
         Once identified, aLOE will be needed from orr to determine project timcl incs. OFOrrrP will
         coordinate with O JT and the CBP Office of Adm inistration (OA). A n initia l meeting to
         determine requirements will be conducted in February 20 14. Additional timeline/milestoncs will
         be developed as needed.

         Estima ted Comple tion Da te: September 2014

         l{ccommcndation #13 : Establish and implement a policy to ensure that each officer processing
         payments at Enrollment Centers has an individual cashier login.

         C BP R esp on se: Concur. OFOrrrP will issue a memo to the lield requiring unique cashier
         logins for anyone (contractors, CBPOs, e tc.) processing fees in an EC. OFOrrrP w ill coord inate
         with OA, O IT , and other offices w ith equities in this process.

         Estimated Completion Date : January 2014

         Recommenda tion # 14: Continue to pursue elim inating the vehicle inspection during the
         SENTRI enrollment process, and provide the OI-lS OIG with quarterly updates regarding actions
         taken until a decision is made.




www.oig.dhs.gov                                            63                                                    OIG-14-32
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




         C BP Rt:sponsc: Concur. This is a long tcm1 project which involves changes to multiple systems
         and requires review and logistical coordination at the OFO ports ofcntry. OFOtrrP wi ll
         coordinate with OtT and o ther offices w ith equities in this project. Our first repon will be
         provided by January 20 14.

         Estimated Completion Date: September 2014

         Recommendation # 15: Provide adequate staffing for the redetermination process to ensure
         continuity and cflicicncy of opennions.

         C BP Response: Concur. OFOt rrP will review and evaluate the current work flow to determine
         the number of stall' n.:cessary to augment the c urrent operation. Assessment of staffing levels
         will be conducted by March 2014.

          Estimated Completion DMte: June 20 14

         Recommendation #16: Automate the C DI' redetermination process to enhance the efficiency
         and e flcctivcness of operatio ns.

         C OP Response: Concur. The creation of a new subsystem for the Ombudsman process will
         require extensive coordination with CBP orr, capturing systems requirements, business rules,
         and developing a LOE for the project.

          An initial assessment meeting w ill occur w ithin 90-120 days to de termine the scope of the
          project ~md future timelines for developme nt and implementation.

          OFOtrrP w ill coordinate with O IT and Ombudsman's ofliee. An initial meeting will be
          conducted in March 2014. with projecttimelines and milestones to fo llow.

          Estimated Completion Date: Septe mber 2014

          Recommendation # 17: Discontinue direct applicant contac t with the CBP Ombudsman, and
          direct requests to DIIS T IUP to file and triage redetermination requests for intake purposes.

          C BP Response: Non-Concur. OilS Trip serves a broader purpose than the Ombudsman process
          for 'liP. By forcing the applicants to go througb OilS Trip as a sing le conduit. 0 1-JS Trip
          becomes inundated as the triage point, only to have these applications passed on to the
          Ombudsman. With the addition of staff and development of an automated process for CBP
          redetermination for TTP process, OI-lS T rip will become ~moth er unnecessary step in the process.




www.oig.dhs.gov                                           64                                                   OIG-14-32
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




         The T f P Ombudsman process is the same across all TTPs--not unique to SENTRJ. Current
         regu lations for the G lobal Entry program provide both the option of OilS Trip o r the CBP
         O mbudsman fo r redress. Atthjs point, or\ly a limited number of applicants utilize D HSTrip to
         request reconsideration by the Ombudsman.

         CBP is committed to the continual improvement of our SENTRl program. and wi ll work with
         o ur intemaJ components and DHS partners to implement the recommendations. If you have any
         questions regarding thjs response, please contact me or have a member of your stair contact Ms.
         Kimberly Je nkins, CBP Audit Liaison. at (202) 325-77 12.




www.oig.dhs.gov                                           65                                               OIG-14-32
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Appendix D
Trusted Traveler Program Eligibility Criteria




                                                                                        SENTRI
                                                                                NEXUS



                                                                                                   Global
                      Eligibility Criteria




                                                                                                   Entry
                                                                         FAST
 Citizen of the United States                                            X         X     X           X
 U.S. Lawful Permanent Resident                                          X         X     X           X
 Driving a Commercial Conveyance into Canada                             X
 Driving a Commercial Conveyance into the United States                  X
 Citizen of Canada                                                       X         X     X
 Landed Immigrants of Canada                                             X         X
 Citizen of Mexico                                                       X               X
 Resident of Mexico                                                      X               X
 Nationals of Countries Approved through Bi-National                                                 X
 Trusted Traveler Programs
 Admissible to Canada                                                              X
 Admissible to the United States                                                   X     X
 Permissible to Work or Study in the United States                                 X     X
 Permissible to Work or Study in Canada                                            X
 All Ages May Apply                                                                X     X
 18 Years of Age or Older                                                X
 Custodial Parents or Guardians Must have Evidence of                              X     X
 Custody
 Valid Driver’s License                                                  X
 Approved SENTRI or NEXUS Members with Fingerprints on                                               X
 File
 Approved Global Entry Members with an RFID Global Entry                           X     X
 Card
Source: OIG Analysis of the CBP Consolidated Trusted Traveler Programs Handbook.




www.oig.dhs.gov                                  66                                              OIG-14-32
                        OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


Appendix E
SENTRI Enrollment Process




Source: OIG Analysis.



www.oig.dhs.gov                      67                    OIG-14-32
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Appendix F
Potential Trusted Traveler Program Database Queries
TECS

TECS is an information-sharing platform that allows users to access different temporary
and permanent enforcement, inspection, and operational records relevant to the anti­
terrorism and law enforcement mission of CBP and numerous other Federal
departments and agencies that it supports. TECS not only provides a platform for
interaction between databases and defined TECS users, but also serves as a data
repository to support law enforcement lookouts, border screening, and reporting for
CBP’s primary and secondary inspection processes.

Source: CBP.

National Crime Information Center

The National Crime Information Center is a Federal Bureau of Investigation
computerized index of criminal justice information, such as criminal record history
information, fugitives, stolen properties, and missing persons. It is available to Federal,
State, and local law enforcement and other criminal justice agencies and is operational
24-hours a day, 365 days a year. This information assists authorized agencies in criminal
justice and related law enforcement objectives, such as apprehending fugitives, locating
missing persons, locating and returning stolen property, as well as in protecting law
enforcement officers encountering individuals described in the system.

Source: Federal Bureau of Investigation.

International Criminal Police Organization

The International Criminal Police Organization enables police in the 190 member
countries to work together to communicate securely, share and access vital police
information whenever and wherever needed, ensuring the safety of the world's citizens.
Its main databases include, but are not limited to, nominal data, stolen and lost travel
documents, fingerprints, DNA profiles, firearms, stolen motor vehicles, suspected
terrorists, and stolen administrative documents.

Source: International Criminal Police Organization.




www.oig.dhs.gov                                       68                          OIG-14-32
                             OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Intelligence Fusion System

The Intelligence Fusion System is a U.S. Immigration and Customs Enforcement-
operated system with two distinct purposes. First, the Intelligence Fusion System
provides search and limited analysis capabilities to DHS components responsible for
enforcing or administering U.S. customs and immigration laws, as well as other laws
within the DHS mission. Second, the Intelligence Fusion System acts as the repository for
the U.S. Immigration and Customs Enforcement’s Office of Intelligence work.

Source: U.S. Immigration and Customs Enforcement.

Automated Targeting System (ATS)

ATS is a computerized decision support tool to compare traveler, cargo, and conveyance
information against law enforcement, intelligence, and other enforcement data using
risk-based targeting scenarios and assessments. ATS support for CBP’s mission is
directed into five general areas, including land borders. Each sub-system supports the
CBP officer in determining whether or not a particular individual or cargo is higher risk
than other individuals or cargo.

Source: CBP.

Consolidated Consular Database

The Consular Consolidated Database holds current and archived data from the U.S. State
Department’s Bureau of Consular Affairs domestic and post databases around the
world. It contains more than 100 million visa cases and 75 million photographs, and has
a current growth rate of approximately 35,000 visa cases every day. It was created to
provide the Bureau of Consular Affairs with a near real-time aggregate of the consular
transaction activity collected domestically and at post databases worldwide. The
Consular Consolidated Database provides for a set of centralized visa and U.S. citizen
services.

Source: U.S. Department of State.




www.oig.dhs.gov                                 69                              OIG-14-32
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


Appendix G
Strict Standard Policy




www.oig.dhs.gov                  70                    OIG-14-32
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                71                    OIG-14-32
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security


Appendix H
Enrollment Center Interview Checklist




www.oig.dhs.gov                 72                    OIG-14-32
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                73                    OIG-14-32
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security




Source: Consolidated Trusted Traveler Programs Handbook.




www.oig.dhs.gov                                 74                OIG-14-32
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix I
SENTRI Trusted Traveler Briefing Points
   •	 The issuance of the SENTRI RFID membership card will be received through the
      mail to a U.S. address.
   •	 Instructions for handling the RFID card and its technology.
   •	 Instructions for declaring merchandise over personal exemption amounts or
      more than $10,000 in monetary instruments.
   •	 A list of prohibited items.
   •	 Penalties for non-compliance with agency or program requirements.
   •	 An explanation and demonstration of entering the United States as a trusted
      traveler.
   •	 An explanation on the procedures for reporting an inoperable membership card.
   •	 The requirement to notify CBP of changes of address, immigration status,
      employment, or name through GOES or the enrollment centers.
   •	 Changes that can be made through GOES by the applicant: 
               o	 Update address and “mail to” address, and
               o	 Update vehicle license plate information.
   •	 Changes that require an application in GOES:
               o	 Renewals,
               o	 Replacement Cards, and
               o	 Adding a vehicle.
   •	 Access routes to the DCL lanes or pedestrian lanes.
   •	 A list of participating SENTRI POEs, including hours and days of operation.
   •	 How to present the RFID card at the primary vehicle or pedestrian booth.
   •	 The use of SENTRI cards in a non-trusted traveler primary vehicle or pedestrian
      lanes.
   •	 The requirement that every occupant in a vehicle using the DCL must have a
      SENTRI card.
   •	 The restrictions on commercial goods, including commercial samples, that are
      not allowed in the DCL; however, laptop computers used for business purposes
      and business notes are allowed.
   •	 The exportation of commercial merchandise out of the United States requires a
      commercial user fee decal to use DCLs.
   •	 SENTRI members may only use the DCLs with a vehicle that is registered with the
      SENTRI Program, including motorcycles.
   •	 The vehicle license plate must be free of obstructions so that the license plate
      reader can clearly capture the plate.
   •	 All merchandise must be declared, including duty free merchandise, purchased
      or acquired outside of the United States. Members are required to declare

www.oig.dhs.gov                          75	                                 OIG-14-32
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


        everything in their possession, even if the CBP officer does not specifically ask if
        anything will be declared during primary inspection.

Source: Consolidated Trusted Traveler Programs Handbook.




www.oig.dhs.gov                                 76                                  OIG-14-32
                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix J
Major Contributors to This Report
Marcia Moxey Hodges, Chief Inspector
Angela Garvin, Lead Inspector
Amy Tomlinson, Senior Inspector
Rahne C. Jones, Inspector
Adam C. Brown, Inspector




www.oig.dhs.gov                        77                   OIG-14-32
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix K
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
CBP Audit Liaison
Director of Local Affairs, Office of Intergovernmental Affairs
Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             78                          OIG-14-32
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
